               U.S. Department of Commerce
                   Office of Inspector General



Semiannual Report to Congress

                                  March 2013
OffICE Of
InspECtOr GEnErAl




                                                  Inspector General


                                                       Deputy
                       Office of
                                                  Inspector General                      Office of Counsel
                     Administration




                          Office of Audit                                             Office of
                          and Evaluation                                           Investigations




Oversight Areas                                              OIG Main number
Office of the Secretary                                      Inspector General. . . . . . . . . . . . . . . . . . . . . . . . . . . 202.482.4661
Bureau of Economic Analysis
                                                             OIG Hotline
Bureau of Industry and Security
                                                             Telephone. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 202.482.2495
Economic Development Administration                                                                                                 or 800.424.5197
Economics and Statistics Administration
International Trade Administration                           TDD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 202.482.5923
Minority Business Development Agency                                                                                                     or 800.854.8407
National Institute of Standards and Technology
                                                             E-mail. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .hotline@oig.doc.gov
National Oceanic and Atmospheric Administration
National Technical Information Service
                                                             More Information
National Telecommunications and                              Visit www.oig.doc.gov to learn more about our activities,
   Information Administration                                download reports and testimony, and subscribe to
U.S. Census Bureau                                           our RSS feed for website updates. E-mail website
U.S. Patent and Trademark Office                             comments to oigweb@oig.doc.gov.
               U.S. Department of Commerce
                   Office of Inspector General



Semiannual Report to Congress

                                  March 2013
d                 Office of Inspector General | Semiannual Report to Congress | March 2013




    tAblE Of 

    COntEnts




    01 FROM ThE INSPECTOR GENERAl
    02 TOP MANAGEMENT ChAllENGES FACING ThE DEPARTMENT
    08 OVERSIGhT AREAS

    08 DEpArtMEnt-WIDE MAnAGEMEnt

    16 ECOnOMIC DEvElOpMEnt ADMInIstrAtIOn

    18 ECOnOMICs AnD stAtIstICs ADMInIstrAtIOn

    20 IntErnAtIOnAl trADE ADMInIstrAtIOn

    22 MInOrIty busInEss DEvElOpMEnt AGEnCy

    24 nAtIOnAl InstItutE Of stAnDArDs AnD tECHnOlOGy

    26 nAtIOnAl OCEAnIC AnD AtMOspHErIC ADMInIstrAtIOn

    30 nAtIOnAl tElECOMMunICAtIOns AnD InfOrMAtIOn ADMInIstrAtIOn

    34 unItED stAtEs pAtEnt AnD trADEMArk OffICE

    36 AMErICAn rECOvEry AnD rEInvEstMEnt ACt
       NATIONAl TElECOMMUNICATIONS AND INFORMATION ADMINISTRATION

    40   WORk IN PROGRESS
    44   STATISTICAl DATA
    50   REPORTING REqUIREMENTS
    52   ACRONyMS AND ABBREVIATIONS
                                                                                         1




frOM tHE
InspECtOr GEnErAl


I am pleased to present the Department of Commerce Office of Inspector General’s
Semiannual Report to Congress for the 6 months ending March 31, 2013.

This report summarizes work we initiated and completed during this semiannual
period on a number of critical departmental activities. Over the past 6 months, our
office issued 18 audit, evaluation, and inspection reports addressing programs
overseen by the Economics and Statistics Administration, International Trade
Administration, National Oceanic and Atmospheric Administration, National
Telecommunications and Information Administration, U.S. Patent and Trademark
Office, and the Department itself.

In November 2012, we issued our annual report, identifying the top management
challenges facing the Department in fiscal year 2013, a summary of which appears on
page 2. We will work closely with the Department and Congress in the months ahead
to meet these and other challenges facing Commerce as it fulfills its complex mission.

We thank senior officials throughout the Department and members of Congress
and their staffs for their support of our work and for their receptiveness to our
recommendations to improve Commerce programs and operations.

We would also like to convey our appreciation of Deputy Secretary Rebecca Blank’s
outstanding service to the Department and her support of our office over the past 4
years. We wish her well in her new role as chancellor of the University of Wisconsin
at Madison.




TODD J. ZINSER

2   Office of Inspector General | Semiannual Report to Congress | March 2013




    tOp MAnAGEMEnt
    CHAllEnGEs fACInG
    tHE DEpArtMEnt

    The Reports Consolidation Act of 2000 requires inspectors general to identify
    the top management challenges facing their departments. In November 2012,
    the Department of Commerce OIG identified five challenges that require
    significant departmental attention in Fy 2013 and beyond.



    1. stIMulAtE ECOnOMIC GrOWtH In kEy InDustrIEs, InCrEAsE ExpOrts,
       AnD EnHAnCE stEWArDsHIp Of MArInE fIsHErIEs

    The Department is at the center of the federal government’s efforts to stimulate economic and
    job growth in key industries and promote exports, while regulating exports and maintaining the
    delicate balance between promoting and regulating the commercial use of marine fisheries. These
    efforts require the Department to work effectively with interagency partners and the private sector
    as well as to marshal and integrate Commerce resources.

    stimulate Economic Growth in Manufacturing, Intellectual property, and Wireless
    Industries. The Department led several initiatives to help stimulate manufacturing, which plays
    an important role in creating high-paying jobs. These include a Repatriation Task Force led by the
    Secretary’s office to help bring manufacturing jobs back to America and initiatives led by NIST to
    stimulate manufacturing technologies. Success in these efforts requires integrating Commerce
    resources, collaborating with interagency partners, and securing congressional support. Also,
    timely decisions on patent applications are key to fostering innovation and protecting inventors’
    intellectual property rights, critical to the U.S. economy.

    While USPTO successfully reduced the patent applications backlog from more than 700,000 to
    around 600,000 by the end of Fy 2012, it has a long way to go to achieve its goal of reducing
    the backlog to a 10-month inventory (approximately 350,000). Also, implementing the leahy-
    Smith America Invents Act on patent reform requires significant management planning, oversight,
    and outreach. Finally, radio frequency spectrum provides an array of wireless communication
    services critical to the U.S. economy. While recent technology advances make the shared (more
    efficient) use of spectrum feasible, it requires a strong partnership between NTIA and the Federal
    Communications Commission and commercial providers to overcome challenges such as bidding
    incentives, revenue generation, and rights of use.

    promote and regulate Exports. To promote the President’s National Export Initiative, ITA
    shifted resources to support higher priority markets and has proposed a reorganization to enhance
    foreign market access and U.S. competitiveness. The Department must continue to strategically
    reorganize its personnel and resources while providing seamless assistance to the public and
    enhance collaboration and information sharing with partner agencies. The Department is also
    responsible for maintaining strong trade enforcement and export control programs. For example,
    BIS administers and enforces dual-use export controls. In April 2010, the Administration proposed
    the Export Control Reform initiative to streamline the country’s export control system. BIS has
    worked with its interagency partners to review the munitions and dual-use lists to assess whether
    changes to controls on certain products are warranted. Commerce must ensure its continued
                                                             Top Management Challenges Facing the Department   3




support of these important enforcement and control initiatives through leveraging existing
federal resources.

protect and promote Marine fisheries. For several years, we have reported on NOAA’s
challenge of balancing two competing interests: promoting commercial and recreational fishing as
vital elements of our national economy and preserving populations of fish and other marine life. In
recent years, members of the fishing industry and elected officials from the New England region
have repeatedly questioned certain fishery regulations and whether NOAA has abandoned its
core mission of developing the commercial fishing industry and increasing industry participation.
In its rulemaking, the Department and NOAA will continue to balance the competing interests of
promoting fishing and preserving populations of fish and other marine life.

2. InCrEAsE OvErsIGHt Of rEsOurCEs EntrustED by tHE publIC AnD
   InvEst fOr lOnG-tErM bEnEfIts

As the Department prepares for this extended period of tighter budgets and decreased
spending, it is more important than ever to understand the risks associated with making trade­
offs in allocating resources between the implementation of programs and the oversight of these
programs.

Increase Internal Controls and Oversight of Departmental Operations under a
Constrained budget. Since Fy 1999, the Department has received unqualified audit opinions
on its financial statements. While this is a testimony of the health of departmental financial
reporting systems, it is not an adequate benchmark for internal controls and management
oversight of day-to-day operations. Recent concerns over conference spending, unauthorized
reprogramming of funds, and ethical violations committed by Commerce fund recipients have
highlighted the importance of strong internal controls and the continued need for effective
management oversight.

Invest for Efficiencies and long-term benefits. Smart investment for long-term benefits,
when combined with responsible spending, is key to success in today’s constrained budget
environment. The Department has endorsed several efforts to modernize its mission-support
functions, which require senior management attention. The planned replacement of all legacy
financial systems between Fys 2014 and 2018 is critical to the Department’s future and Census’s
2020 decennial readiness. With the diverse cultures in the Department, synchronizing bureau
financial operations to limit the amount of software customization in replacement systems will
require strong departmental governance. In addition, the Department needs to work with the
U.S. General Services Administration and Congress to secure funding for continued safety
improvement in the herbert C. hoover headquarters building.

Implement bold Design Changes to Contain 2020 Decennial Costs While Maintaining
Enumeration Quality. The Census Bureau has vowed to contain the costs of the 2020
decennial to an amount close to final costs of the 2010 census. To achieve cost savings,
the bureau is exploring new and innovative design alternatives but has already encountered
challenges, such as cancellation of lessons-learned studies due to funding constraints, uncertainty
surrounding the American Community Survey, and difficulties in accessing administrative records
maintained by other government entities—critical to cost containment. In addition, the leadership
void at the director’s position raises serious concerns. Because the bureau operates on long
planning cycles for the decennial census, it is difficult to maintain leadership with a consistent
vision throughout the cycles—and much easier to fall back on old ways and institutional habits.
4   Office of Inspector General | Semiannual Report to Congress | March 2013




    3. strEnGtHEn sECurIty AnD InvEstMEnts In InfOrMAtIOn tECHnOlOGy

    In Fy 2012, the Department planned to invest $2.4 billion in IT. This is about 25 percent of its
    annual budget and one of the highest percentages devoted to IT among all civilian agencies.
    While the Department’s Chief Information Officer (CIO) has taken steps to strengthen IT
    governance, we continue to find significant security vulnerabilities in bureau systems, which could
    lead, and already have led, to service disruptions and loss of sensitive information.

    Continue Improving Commerce’s It security posture by Addressing persistent security
    Weaknesses. Over the years, we have repeatedly identified significant flaws in basic security
    measures protecting IT systems and information. We have continually called for greater attention
    and stronger commitment from the Department’s senior management to basic security practices.
    In response to our recommendations, the Department has updated its IT security policy for
    vulnerability scanning, secure configurations, and management of plans of action and milestones.
    however, the Department needs to better enforce these polices to prevent recurrence of security
    weaknesses.

    Develop resilient Incident response and recovery Capabilities with Increased
    Monitoring of Internet traffic. Several bureaus in Commerce headquarters rely on the
    Department’s Computer Incident Response Team (DOC CIRT) to provide forensic analysis
    when a cyber incident occurs. however, while investigating a malware infection concerning
    EDA during Fy 2012, DOC CIRT faced technical challenges and had to depend on several
    internal and external groups for assistance. The Department needs to strengthen its incident
    response capabilities to deal with ever-increasing cyber events. Also, implementing the Office
    of Management and Budget’s Trusted Internet Connection (TIC) initiative is critical to monitoring
    cyber threats from the Internet. While all bureaus have acquired or planned to acquire TIC service
    by 2014, the Census Bureau has no definite timeline. The Department needs to assign a high
    priority to help Census resolve its concern that the TIC inspection process may violate Title 13 of
    the U.S. Code, which guarantees the confidentiality of census information.

    Manage Commerce’s It portfolio with Enhanced Governance structure. In June 2012,
    the Acting Secretary issued the “Department IT Portfolio Management Strategy,” which expanded
    the oversight role of the Department’s CIO. This new strategy is an important step, but it is
    too early to judge its effectiveness for two reasons. First, historically, bureaus have functioned
    independently on IT matters with little departmental direction. Second, the new strategy focuses
    on increasing the Department CIO’s influence on IT shared commodity services, which account
    for only about 25 percent of the Department’s total IT investments. Senior management should
    consider further enhancing the IT governance structure to help ensure the Department’s success
    with major IT investments.

    strengthen Oversight of It Investments. The Department’s CIO has taken steps to improve
    the IT investment review process. however, three of six troubled IT investments have remained at
    high risk for more than 12 months, and about 25 percent of Commerce’s major IT investments are
    30 percent or more behind schedule. The CIO and Chief Financial Officer need to ensure that
    program management is more aggressively addressing investments with a history of high risk.

    4. IMplEMEnt frAMEWOrk fOr ACQuIsItIOn prOjECt MAnAGEMEnt AnD
       IMprOvE COntrACts OvErsIGHt

    In Fy 2011, the Department obligated approximately $2.4 billion on contracts for goods and
    services. While it has made some progress in enhancing acquisition management, such as
    reorganizing the Office of Acquisition Management, our audits continue to find weaknesses in how
    the Department plans, administers, and oversees its contracts and acquisition programs.
                                                               Top Management Challenges Facing the Department   5




Implement the planned framework for Acquisition project Management. Because of the
challenges the Department encountered in earlier acquisitions, in June 2010, the former secretary
mandated a study be conducted on ways to improve the acquisition process. The resulting study
identified several problems with the system, including requirements, cost analysis, and oversight
of major projects. To address these concerns, the Office of Acquisition Management developed
an Acquisition Project Management Framework/Guidebook. The new framework, if implemented
consistently, should increase the transparency of bureau acquisition programs and help mitigate
risks of cost overruns, schedule delays, and performance shortfalls. The Department needs to
ensure that the departmental policy requiring the use of the uniform acquisition framework is
issued and followed by all bureaus.

Oversee High-risk Contracts. In Fy 2011, the Department reported progress in reducing
dollar amounts of high-risk contract awards. Nonetheless, overseeing existing high-risk contracts
remains a challenge to management. We continue to find weaknesses in the use of cost-plus­
award-fee and cost-plus-award-term contracts. For example, in May 2012, we reported that
NOAA consistently gave contractors high ratings and substantial award fees and contract
extensions, despite the lack of adequate support for their actual performance. Based on our audit,
we found that more than $40 million was paid in award fees or approved for contract extensions
without proper justification. Effective implementation of NOAA measures will be critical to ensuring
it does not pay improper award fees and extend contract terms.

Maintain an Acquisition Workforce that Holds bureau Officials Accountable.
Commerce acquisition workforce’s capability to oversee and manage contracts faces major
challenges due to high turnover and employee retirement, coupled with a significantly reduced
budget, gaps in key competency areas, and expanded workload. Also, our investigations have
continuously identified the need for more vigilant oversight and stronger process controls to
detect and prevent procurement fraud, waste, and abuse. The Department needs to continue
its recruitment efforts at the acquisition entry levels and focus on staff retention to maintain
corporate knowledge.

Implement an Effective suspension and Debarment program. Since finalizing its first
suspension or debarment action in over 15 years, in April 2011, the Department has made
progress toward establishing an efficient and durable suspension and debarment program.
however, certain issues present ongoing challenges. Specifically, while the Office of the
Suspending and Debarring Official has begun drafting policy documents to institutionalize
processes regarding the referral, review, and issuance of suspension and debarment matters, the
adoption process needs to be finalized. Also, there is room for improvement regarding the prompt
review of referral, and the program lacks a clear delineation of roles and responsibilities.

5. rEDuCE rIsks Of COst OvErruns, sCHEDulE DElAys, AnD COvErAGE
   GAps fOr nOAA’s sAtEllItE prOGrAMs

Managing risks in the acquisition and development of the next generation of environmental
satellites is a continuing challenge for the Department. The satellites will provide data and imagery
for weather forecasting and the study of climate change. Operating environmental satellites and
weather forecasting are primary mission-essential functions of the Department, yet because of
cost overruns, schedule delays, and the aging of NOAA’s current constellation of satellites, NOAA
is confronting coverage gaps for these critical assets.

Communicate with stakeholders to Define joint polar satellite system (jpss)
Capabilities, schedule, and Cost baselines. In our September 2011 audit report, we
recommended that NOAA develop a mechanism to provide executive and legislative decision
makers with complete, objective, and understandable information that illustrates the consequences
of limiting satellite observational capabilities. This was driven, in part, from congressional concerns
6   Office of Inspector General | Semiannual Report to Congress | March 2013




    regarding NOAA’s limited communication of plans for its satellite programs. During Fy 2012,
    NOAA has made progress in prioritizing and finalizing high-level JPSS requirements to support its
    commitment to capping the life-cycle costs at $12.9 billion. Nonetheless, fitting requirements into
    a previously authorized budget increases project risks. NOAA needs to revisit the cost estimates
    after finalizing lower-level JPSS requirements, acquisition strategies, and system design—
    particularly for the ground system and “free-flyer” satellites—and work with the Department and
    Congress in adjusting its budget estimates.

    Ensure Adequate leadership and Governance structure over jpss Development. More
    progress in JPSS development may have been possible if not for delays in defining the program’s
    governance structure and staffing key positions. NOAA and NASA did not agree to a management
    control plan for JPSS until February 2012, nearly 2 years after the program was started. Also, only
    two of the top five management positions overseeing JPSS development were permanently filled
    since program inception. qualified officials, who can make timely decisions and take management
    action, are essential for the success of JPSS development. NOAA needs to fill open positions
    overseeing JPSS development and govern the program according to the management plan
    accepted by NASA.

    Develop a plan to support nOAA Weather forecasting Capabilities During Coverage
    Gaps. We project a 10–16-month gap between Suomi National Polar-orbiting Partnership’s
    (Suomi NPP’s) end of design life and when JPSS-1 data become available. NOAA’s medium-
    range weather forecasting (3–7 days) could be significantly degraded during the time that JPSS
    data are unavailable. In our September 2011 report, we recommended that NOAA take actions to
    minimize the degradation of weather and climate forecasting during coverage gaps. NOAA agreed
    but did not fully develop a strategy and mitigation plan. NOAA needs to develop a timetable to
    having a mitigation plan in place before Suomi NPP’s end of design life: November 2016.

    reduce program risks Associated with GOEs-r Development. There is less than a 50
    percent chance the Geostationary Operational Environmental Satellite-R Series (GOES-R)
    will be launched on schedule, based on the program’s own models used to assess GOES-R
    development. NOAA must implement solid program management and system engineering
    principles to control costs, keep schedules on track, and maintain required technical performance.
    The program’s standing review board has also warned that should the program’s request in the
    President’s Fy 2013 budget submission not be realized, a launch delay is nearly certain. NOAA
    needs to adequately communicate to decision makers its justification for the significant funding
    increase for Fy 2013.
7
8   Office of Inspector General | Semiannual Report to Congress | March 2013




    DEpArtMEnt-WIDE MAnAGEMEnt



    The u.s. Department of Commerce works to help American
    companies become more innovative and successful at home and more
    competitive abroad. It creates the conditions for economic growth and
    opportunity by promoting innovation, entrepreneurship, competitiveness,
    and stewardship.

    The Department accomplishes its mission by providing national and
    local weather services; developing key economic and demographic data
    (including the decennial census); advancing technological and scientific
    innovation; protecting and restoring environmental resources; promoting
    international trade; and supporting local, regional, and national economic
    development. These activities affect U.S. business and industry daily and
    play a critical role in the nation’s economic well-being.
                                                                                 Department-Wide Management   9




COMplEtED WOrks (by OvErsIGHt ArEA)

During this reporting period, OIG completed 18 audits, evaluations, and inspections, as well as
3 congressional testimonies.




       11




                        3                3
                                                            1              1     1               1
 Department­wide a    USPTO         Recovery Act b       ESA c            ITA   NOAA            NTIA



a Department-wide completed works include 2 testimonies.

b Recovery Act-related completed works concern NTIA, including 1 testimony.

c ESA completed work concerns the Census Bureau.





QuArtErly COnfErEnCE rEpOrtInG prOCEssEs nEED IMprOvEMEnt
(OIG-13-001-I)

In Fy 2012, the Department received an appropriations provision in the Consolidated and Further
Continuing Appropriations Act, 2012 (P.l. 112-55) requiring it to submit to OIG quarterly reports
on the costs and contracting procedures related to Fy 2012 departmental conferences for which
the government’s costs exceeded $20,000. In the Department’s first conference spending report
to OIG, five bureaus—Census Bureau, ITA, NOAA, NTIA, and USPTO—reported 24 conferences,
totaling over $1.7 million, in the first quarter of Fy 2012.

In March 2012, the Department submitted its first quarter conference report to OIG, along
with a summary of its report validation process and an explanation of ongoing improvements to
conference reporting guidance. In April, we initiated an evaluation of the conference reporting
process; our objective was to determine whether the Department had established controls and
provided guidance to bureaus for reporting quarterly conference data. We limited the scope of
our evaluation to processes for reporting the Department’s conference data for the first quarter
Fy 2012–October 1, 2011, through December 31, 2011.

Our review found that, for this first conference report, the Department established initial
operational processes and reporting guidance. however, these processes were still in
development and needed to become clearly established before the information in its periodic
reports is fully reliable. We noted the following:

•	 The bureaus over- and underreported costs by $37,000 and $70,000, respectively, and
   reported $280,000 in unsupported costs.
10                            Office of Inspector General | Semiannual Report to Congress | March 2013




                              •	 The Department accepted bureaus’ conference spending data with only a limited validation
                                 of the reported data and planning procedures, which resulted in incorrect reporting for select
                                 conferences.

                              We made a number of policy, process, training, and testing recommendations to the Department’s
                              director of the Office of Administrative Services to ensure the reliability of conference data in
                              future submissions.

                              fy 2012 fEDErAl InfOrMAtIOn sECurIty MAnAGEMEnt ACt (fIsMA) AnnuAl
                              rEpOrt (OIG-13-008-M)

                              To meet OIG obligations under FISMA, we reviewed the Department’s IT security policies and
                              procedures. We also assessed the effectiveness of the information security programs of four
                              bureaus—EDA, ITA, NTIA, and USPTO—by evaluating key security measures in place to protect
                              mission-critical information that is processed, stored, or transmitted on 17 information systems.

                              While the Department had taken steps to improve its IT security posture, we found significant
                              security weaknesses in basic security practices. Specifically, our Fy 2012 FISMA audit work
                              identified weaknesses in security categorization, patch management, secure configuration
                              settings, vulnerability scanning, tracking and remediation of security weaknesses, and incident
                              response capabilities.

                                                                     fy 2012 COMplIAnCE WItH I MprOpEr pAyMEnt
Federal Information Security                                         rEQuIrEMEnts (OIG-13-020-I)
Management Act of 2002                                               We initiated this engagement to review the Department’s
(Title III, P.l. 107-347)                                            compliance with the Improper Payments Information Act of 2002
                                                                     (IPIA)—as required by the Office of Management and Budget’s
The Federal Information Security Management Act of                   (OMB’s) government-wide implementation guidance, Circular
2002 requires agencies to secure systems through                     A-123, Management’s Responsibility for Internal Controls,
the use of cost-effective management, operational,                   Appendix C, “Requirements for Effective Measurement and
and technical controls. The goal is to provide adequate              Remediation of Improper Payments.” Specifically, we (1) assessed
security commensurate with the risk and extent of                    whether the Department complied with all reporting requirements
harm resulting from the loss, misuse, or unauthorized                and (2) evaluated the accuracy and completeness of its reporting
access to—or modification of—information collected or                as well as its performance in reducing and recapturing improper
maintained by, or on behalf of, an agency.                           payments.

In addition, FISMA requires inspectors general to                    To comply with IPIA and OMB Circular A-123, Appendix C,
evaluate agencies’ information security programs and                 the Department implemented procedures in Fy 2012 to detect
practices by assessing a representative subset of                    and prevent improper payments—conducting program risk
agency systems. The results are reported to the Office of            assessments, reviewing a sample of Fy 2012 disbursements,
Management and Budget, the Department of homeland                    performing payment recapture audits, and conducting routine
Security, and Congress annually.                                     monitoring procedures. These assessments revealed no programs
                                                                     or activities susceptible to significant risk of improper payments.

                                                              In addition, the Department’s review did not identify any significant
                              improper payments among its approximately $14.8 billion in outlays. The Department’s routine
                              monitoring efforts in Fy 2012 identified almost $1.2 million in improper payments, of which
                              more than $1 million was confirmed by the Department as recaptured. The Department also
                              implemented corrective actions to address some of the issues identified in our March 2012 report
                              on improper payment practices and reporting. A summary of the Department’s relevant Fy 2012
                              practices and results appears in the U.S. Department of Commerce Fy 2012 Performance and
                              Accountability Report (PAR).
                                                                            Department-Wide Management                         11




While the Department met the applicable compliance requirements
for Fy 2012, we determined that the Department could further              Improper Payments Elimination and
improve its improper payment implementation strategy related to
payments made without sufficient documentation. An OIG audit
                                                                          Recovery Act of 2010 (IPERA)
found that the Department paid more than $300,000 in award                (P.l. 111-204)
fees without proper justification for one contract. This amount was
                                                                          IPERA amended the Improper Payments Information Act
considered an unsupported cost. Any such payment made without
                                                                          of 2002 (P.l. 107-300), by expanding on the previous
sufficient documentation to determine propriety represents an
                                                                          requirements for identifying, estimating, and reporting
improper payment. however, this amount was not included in the
                                                                          on programs and activities that were vulnerable to
Department’s Fy 2012 improper payment reporting in the PAR.
                                                                          significant improper payments and broadening recovery
                                                                          requirements for overpayments. (Improper payments
We recommended that the Department identify items that lack
                                                                          are those made by the federal government in the wrong
sufficient documentation from OIG audits and reviews of its
                                                                          amount, to the wrong entity, or for the wrong reason.)
programs and activities and report the unsupported costs related
to those items as improper payments in its annual PAR.

lEttEr tO r EprEsEntAtIvEs IssA An D CuMMInGs rEGArDInG tHE OIG WOrk
plAn AnD u nIMplEMEntED r ECOMMEnDAtIOns (OIG-13-025-M)

In response to a congressional request, the Inspector General provided information about OIG’s
work plan and highest-priority unimplemented recommendations to the Department or its bureaus.
In his reply, he noted that OIG’s annual risk-based work plan includes legislatively mandated work,
such as reviews of IT security and annual financial statement audits, as well as other priorities
discussed in the annual Top Management Challenges report. OIG’s plan contains the flexibility to
perform critical unplanned additional work that is either required by new legislation or requested
directly by Congress.

OIG’s most important unimplemented short-term recommendations concern the following
program areas: NOAA deficiencies in budgetary controls and accounting procedures, NOAA
environmental satellite programs, NOAA acquisitions, and NTIA’s and ITA’s IT security. The most
important unimplemented long-term recommendations concern NOAA deficiencies in budgetary
controls, USPTO IT automation, and the Census Bureau’s 2020 decennial census. The issues,
recommendations, and implementation status were summarized in more detail in two enclosures.

A third enclosure described ways in which the Department and bureau management solicit OIG
input on how to improve efficiency and reduce waste. For the Recovery Act, the Department and
bureau management reached out to OIG for assistance in several ways, including involvement
in NTIA’s oversight of the Broadband Technology Opportunities Program through workshops,
training sessions, assistance in drafting program-specific audit guides, and site visits. Bureau
and departmental management requested audit data and analysis as well as assistance in
resolving operational issues. In addition, the Inspector General attends select departmental
meetings to keep posted on bureau events. OIG is also working with the Department to identify
additional departmental and bureau oversight meetings at which OIG could participate in an
advisory capacity.

fy 2012 COnsOlIDAtED fI nAnCIAl stAtEMEnt AuDIts (OIG-13-006-A,
OIG-13-007-A, OIG-13-009-A)

Independent auditor kPMG llP found that the Department’s consolidated financial statements
were fairly presented in all material respects and in conformity with U.S. generally accepted
accounting principles. It found no instances in which the Department’s financial management
systems did not substantially comply with the requirements of the Federal Financial Management
Improvement Act of 1996.
12   Office of Inspector General | Semiannual Report to Congress | March 2013




     kPMG found one material weakness in internal control over financial reporting related to NOAA’s
     financial management oversight of budgetary controls and accounting for general property
     and satellites. The budgetary control issues related to moving expenses between accounts to
     prevent exceeding budget authority, and using appropriations for program activities that may
     not meet the intended purpose. The property issues, including satellites, related to proper and
     timely accounting for acquisitions, transfers, construction work-in-process, asset retirements,
     and impairment assessments. As a result of these matters, NOAA needs to make significant
     improvements in its financial management oversight of its budget execution processes, as well as
     the effective accounting for its property, including satellites. (A material weakness is a deficiency,
     or a combination of deficiencies, in internal control such that there is a reasonable possibility that
     a material misstatement of the entity’s financial statements will not be prevented, or detected and
     corrected on a timely basis.)

     In addition, kPMG noted one significant deficiency related to controls over general information
     technology (which was not considered to be a material weakness). kPMG identified new
     deficiencies in Fy 2012 relating to control weaknesses in IT security, access, and configuration
     management that require management’s attention. Despite the positive efforts made by the
     Department, the Department needs to make continued improvements in its IT controls to fully
     ensure that financial data processed on the Department’s systems has integrity, is securely
     maintained, and is available only to authorized users. (A significant deficiency in internal control
     exists when the design or operation of a control does not allow management or employees—in
     the normal course of performing their assigned functions—to prevent or detect and correct
     misstatements on a timely basis and merits attention by those charged with governance.)

     kPMG also noted a reportable noncompliance with the Antideficiency Act. During Fy 2012, the
     Department determined that the National Weather Service, a component of NOAA, circumvented
     budgetary controls by moving expenses between accounts to prevent exceeding budget authority.

     kPMG also audited the Department’s special-purpose financial statements and determined
     its compliance with financial reporting requirements in the Treasury Financial Manual. These
     statements are used to assist in preparing the Financial Report of the U.S. Government. In its
     unqualified opinion on these statements, kPMG reported no material weaknesses in internal
     control and no instances of noncompliance.

     nOnfEDErAl AuDIt rEsults fOr tHE 6-MOntH pErIOD EnDInG
     DECEMbEr 31, 2012 (OIG-13-015-M)

     Nonfederal entities (states, local governments, tribes, colleges and universities, and nonprofit
     organizations) that expend $500,000 or more in a year of federal awards are required by the
     Single Audit Act of 1984, and Amendments of 1996, to have an annual audit of their federal
     awards. During the 6-month period ending December 31, 2012, OIG reviewed 115 reports by
     recipients of grants from EDA, MBDA, NIST, NOAA, and NTIA. The audits identified approximately
     $2,355,151 in questioned costs. Our report contained an analysis of findings identified in
     single audit reports, noted trends in the types of findings reported, and summarized findings by
     departmental program.

     Commercial organizations that receive federal funds from the Department are subject to award
     requirements as stipulated in the award document. If an award does not have specific audit
     guidelines incorporated into the award, OIG auditors follow the requirements for a program-
     specific audit as described in OMB Circular A-133, Audits of States, Local Governments, and
     Non-Profit Organizations, section 235. During the reporting period, OIG analyzed 27 audits
     submitted for awards to commercial and other organizations for NIST’s Advanced Technology
     Program (ATP) and NIST’s Technology Innovation Program (TIP). The audits identified
     approximately $1,655,673 in questioned costs for these program-specific audits.
                                                                                                  Department-Wide Management   13




AuDIts Of COMMErCE funD rECIpIEnts by InDEpEnDEnt AuDItOrs
(rEvIEWED by OIG DurInG tHE 6 MOntHs EnDInG MArCH 31, 2013)

In addition to undergoing OIG-performed audits, certain recipients of Department of Commerce
financial assistance or cost-reimbursable contracts are periodically examined by state and local
government auditors and by independent public accountants. OMB Circular A-133 sets forth
audit requirements for most of these audits. For-profit organizations are audited in accordance
with Government Auditing Standards. For-profit organizations include those that receive TIP
funds and funds from NIST’s Measurement and Engineering Research and Standards program.
In addition, organizations that received ATP funds are audited in accordance with NIST Program-
Specific Audit Guidelines for Advanced Technology Program Cooperative Agreements.

We examined 144 audit reports during this semiannual period to determine whether they
contained audit findings related to departmental programs. For 89 of these reports, the
Department acts as an oversight agency and monitors the audited entity’s compliance with OMB
Circular A-133, Government Auditing Standards, or program-specific reporting requirements.
The other 55 reports cover entities for which other federal agencies have oversight responsibility.
We identified 14 reports with material findings related to the Department.


report Category                              OMb A-133 Audits                   program-specific                     total
                                                                                   Audits

Pending Review (October 1, 2012)                        23                                  2                          25
Received                                               118                                20                          138
Examined                                               125                                19                          144
Pending Review (March 31, 2013)                         16                                  3                          19



The following table shows a breakdown by bureau of approximately $538 million in Department
funds audited through the A-133 or program-specific guidelines.


  Agency                                                                                                          funds

  Economic Development Administration                                                                         76,744,846

  Minority Business Development Agency                                                                                    0

  National Institute of Standards and Technologya                                                             45,320,189

  National Oceanic and Atmospheric Administration                                                             15,513,242

  National Telecommunications and Information Administration                                                142,605,296
  Multi-bureau                                                                                              257,712,441
  total                                                                                                     537,896,014

a Includes $41,137,120 in program-specific audits; A-133 audits account for the remaining amount of $4,183,069.




The audits identified a total of $2,773,970 in the federal share of questioned costs, $145,356
in federal unsupported costs and $2,450,174 in funds to be put to better use. In most reports,
the subject programs were not considered major programs; thus, the audits involved limited
transaction and compliance testing against laws, regulations, and grant terms and conditions.
The 14 reports with departmental findings are listed in table 7-a on page 52.
14   Office of Inspector General | Semiannual Report to Congress | March 2013




     COnGrEssIOnAl tEstIMOny (OIG-13-018-t)

     On February 28, 2013, the Deputy Inspector General testified before the house Science, Space,
     and Technology’s Subcommittee on Oversight about the top management challenges facing the
     Department in Fy 2013. (These are summarized on pages 2–6 of this report.) Before discussing
     the individual challenges, he noted that the Department plays a pivotal role in implementing the
     President’s initiatives for economic recovery and job creation and, like other federal agencies,
     faced significant financial uncertainties in the upcoming year.

     COnGrEssIOnAl tEstIMOny (OIG-13-019-t)

     On March 5, 2013, the Inspector General testified before the house Appropriations Committee’s
     Subcommittee on Commerce, Justice, Science, and Related Agencies about the Department’s
     Fy 2013 top management challenges. he focused on specific aspects of four of the five
     challenges. NOAA satellite-related challenges, he said, include reducing the risk of cost overruns,
     schedule delays, and coverage gaps. For the 2020 Census, the bureau needs to implement
     design changes to contain life-cycle costs while maintaining enumeration quality. The U.S. Patent
     and Trademark Office must reduce the patent backlog, improve processing times, and effectively
     implement patent reform. The fourth area—departmental operational controls and oversight—
     requires strengthened operational controls and oversight under constrained budgets.

     bODy ArMOr MAnufACturEr sEttlEs In DEfECtIvE MErCHAnDIsE CAsE

     In October 2012, First Choice Armor & Equipment (First Choice); Edward Dovner; karen
     herman; Exotic Cars, llC; Excel Aviation, llC; and MRSA Jets, llC (collectively, “the Dovner
     Corporations”) agreed to settle a civil false claims case for $250,000 as the result of an
     investigation into the manufacture and sale of bulletproof vests containing Zylon. This settlement
     is part of a larger investigation of the body armor industry’s use of Zylon ballistic material in body
     armor, as we previously reported in prior Semiannual Reports. The companies manufactured
     and sold Zylon bulletproof vests despite possessing information showing that the Zylon materials
     degraded quickly over time and were not suitable for ballistic use. The First Choice vests were
     purchased by the federal government and by various state, local, and tribal law enforcement
     agencies that were partially reimbursed by the United States under the U.S. Department of
     Justice’s (DOJ’s) Bulletproof Vest Partnership Grant Program. This settlement was the result of
     a joint investigation involving DOJ and investigative units from our office and eight other federal
     departments and agencies.

     fOrMEr DEpArtMEnt EMplOyEE rEMOvED fOllOWInG DIsClOsurE Of
     pErsOnAlly IDEntIfIAblE InfOrMAtIOn AnD prOvIDInG fAlsE InfOrMAtIOn

     In December 2012, a Department employee resigned from federal service after our investigation
     determined she had committed several improprieties in the course of performing her official job
     duties, as well as in her role as a supervisor. We found that the former employee provided false
     information to the Department’s Computer Incident Response Team (DOC-CIRT) when she
     asserted she had encrypted the social security numbers of over 30,000 Department employees
     within files she e-mailed. Our investigation, performed jointly with CIRT, found the e-mailed files
     clearly exposed the employees’ social security numbers. In the course of our investigation, we
     also determined the former employee had inappropriately approved a $1,000 cash award to a
     subordinate for performance in order to offset the subordinate’s loss of salary resulting from a
     change in the subordinate’s tax withholdings. Further, we found the former employee had not
     followed Department policy when she approved over $100,000 in student loan repayments for
     three employees.
                                                                             Department-Wide Management   15




nInE ADDItIOnAl MultIMIllIOn DOllAr GuIlty plEAs In prICE-fIxInG CAsE

In November 2012, 10 Japanese shipping companies pled guilty for their roles in a conspiracy
to fix certain fees in the provision of freight forwarding services for air cargo shipments from
Japan to the United States between September 2002 and November 2007. In the September
2010 Semiannual Report, we reported on guilty pleas by six companies for their violations of
the Sherman Antitrust Act by conspiring to create and fix fees related to export surcharges,
currency adjustments, and peak season surcharges. As a result of this multiyear investigation,
16 companies have either pled guilty or agreed to plead guilty and have agreed to pay criminal
fines totaling more than $120 million. The investigation was conducted in conjunction with
DOJ’s Antitrust Division–National Criminal Enforcement Section, and the Federal Bureau of
Investigation’s Washington Field Office.
16   Office of Inspector General | Semiannual Report to Congress | March 2013




     ECOnOMIC DEvElOpMEnt
     ADMInIstrAtIOn



     The u.s. Economic Development Administration’s mission is to
     lead the federal economic development agenda by promoting innovation
     and competitiveness, preparing American regions for growth and
     success in the worldwide economy. Its investment policy is designed
     to establish a foundation for sustainable job growth and the building
     of durable regional economies throughout the United States. This
     foundation builds on two key economic drivers: innovation and regional
     collaboration.
                                                                      Economic Development Administration   17




EDA InstItutEs nEW sAfEGuArDs tO ADDrEss GrAnt
MAnAGEMEnt COnCErns

Our office initiated a joint investigation with the Federal Bureau of Investigation (FBI) into the
potential forgery of grant documents on an EDA grant. We confirmed multiple instances of
evident forgery and fraud related to grant beneficiary assurances on two occasions, although
there was insufficient evidence to prove who actually forged the documents. We found EDA
lacked a clear policy across its regional offices on the amount of pre-award due diligence that
must be conducted on grant applicants and beneficiaries. We also identified concerns with the
enforcement of regulations limiting the extent to which grantees may use private consultants
to prepare their grant applications. In January 2013, EDA responded to our findings by (1)
withholding final payment to the grantee, pending administrative action with respect to the
grantee’s employees who had not properly vetted the beneficiary assurances, and (2) restating
existing EDA policies regarding the required due diligence for review and approval of applications
and related documentation, as well as recordkeeping and internal controls.

EDA rEvIsEs pOlICy tO EnsurE bEttEr MOnItOrInG Of
HIGH-rIsk GrAntEEs

In June 2010, our office opened an investigation regarding misuse of EDA grant funds by an EDA
grantee in Arizona and determined the grantee had used EDA grant funds to pay an employee
who worked on non-EDA projects, resulting in an improper payment of $17,337.83 in federal
funds to the grantee. Subsequently, EDA designated the grantee as high-risk and instituted policy
changes to ensure proper training and compliance for both the grantee and the regional office in
charge of oversight of the grantee. This case originated from a hotline complaint.
18   Office of Inspector General | Semiannual Report to Congress | March 2013




       ECOnOMICs AnD stAtIstICs
       ADMInIstrAtIOn



       The Economics and statistics Administration analyzes economic
       activity, formulates policy options, and produces a major share of the
       U.S. government’s economic and demographic statistics. ESA has one
       constituent operating unit and two primary operating units.

       Office of the Chief Economist—Provides the Department with
       expertise on key economic forces affecting the U.S. economy,
       delivering timely, relevant, and credible economic analysis and advice to
       government leaders and the public.

       Census Bureau—Publishes a wide variety of statistical data about the
       nation’s people and economy, conducting approximately 200 annual
       surveys in addition to the decennial census of the U.S. population and
       the quinquennial census of industry.

       Bureau of Economic Analysis—Prepares, develops, and interprets
       national income and product accounts (summarized by the gross
       domestic product), as well as aggregate measures of international,
       regional, and state economic activity.
                                                                       Economics and Statistics Administration   19




lEttEr tO sEnAtOr COburn rEGArDInG IMprOvInG tHE 2020 CEnsus
tHrOuGH ADMInIstrAtIvE rECOrDs AnD GEOspAtIAl InfOrMAtIOn
(OIG-13-002-M)

In October 2012, the Inspector General responded to a request from Senator Coburn made
during a July 2012 hearing about 2020 Census planning before the U.S. Senate Committee on
homeland Security and Governmental Affairs, Subcommittee on Federal Financial Management,
Government Information, Federal Services, and International Security. Senator Coburn asked
OIG to answer (1) what Congress can do to help the Census Bureau make greater use of
administrative records, and (2) how Congress can ease the Census Bureau’s restrictions on
sharing address information with state and local governments.

The Inspector General’s response outlined that data collected by federal agencies for program
purposes (typically referred to as administrative records) contain personally identifiable information
that, when combined with other records, can produce statistical information such as demographic,
labor force, and socioeconomic indicators. Administrative records have the potential to decrease
data collection costs, reduce respondent burden, and produce additional data that are not
collected by questionnaires. however, accumulating person-level information from multiple
sources must be balanced against privacy and confidentiality concerns. Consequently, OIG
suggests that Congress consider (1) playing a role in compelling other federal agencies to provide
their data to the Census Bureau and (2) easing the Bureau’s restrictions on sharing address
information with state and local governments.
20   Office of Inspector General | Semiannual Report to Congress | March 2013




       IntErnAtIOnAl trADE
       ADMInIstrAtIOn



       The International trade Administration strengthens the
       competitiveness of U.S. industry, promotes trade and investment, and
       ensures fair trade through the rigorous enforcement of our trade laws
       and agreements. ITA works to improve the global business environment
       and helps U.S. organizations compete at home and abroad. ITA is
       organized into four distinct but complementary business units.

       U.S. and Foreign Commercial Service—Promotes U.S. exports,
       particularly by small- and medium-size enterprises, and provides
       commercial diplomacy support for U.S. business interests around
       the world.

       Manufacturing and Services—Strengthens U.S. competitiveness
       abroad by helping shape industry-specific trade promotion policy.

       Market Access and Compliance—Assists U.S. companies
       and helps create trade opportunities through the removal of market
       access barriers.

       Import Administration—Enforces U.S. trade laws and agreements
       to prevent unfairly traded imports and to safeguard the competitive
       strength of U.S. businesses.
                                    International Trade Administration                         21




U
                                    U.S. Export Assistance Centers
                                    The Office of Domestic Operations of the United States
                                    & Foreign Commercial Service (CS) employs around 350
                                    staff, most of whom are trade specialists. This domestic
                                    unit operates 107 field offices, known as U.S. Export
                                    Assistance Centers (USEACs) located across eight
                                    networks nationwide.

                                    Domestic trade specialists at USEACs provide export
                                    counseling to small- and medium-size businesses,
                                    helping them identify foreign markets and facilitate the
                                    sale of their products. They work closely with overseas
                                    CS staff to set up interviews with foreign buyers,
                                    compile financial reports on foreign companies, and
                                    screen foreign business contacts for U.S. companies.
                                    The vast majority of services that USEACs deliver are
                                    free of charge.

                                    A CS service that results in an actual export sale or the
                                    appointment of a foreign agent/distributor is recorded
                                    as an export success, which is among the organization’s
                                    primary performance measures.




Commercial service usEAC networks
                                    Source: U.S. Commercial Service
22   Office of Inspector General | Semiannual Report to Congress | March 2013




     MInOrIty busInEss
     DEvElOpMEnt AGEnCy



     The Minority business Development Agency was created to help
     minority owned and operated businesses achieve effective and equal
     participation in the American free enterprise system and overcome the
     social and economic disadvantages that have limited their participation
     in the past. MBDA provides management and technical assistance to
     minority firms upon request, primarily through a network of business
     development centers. It also promotes and coordinates the efforts of
     other federal agencies in assisting or providing market opportunities for
     minority businesses.
                                                                    Minority Business Development Agency   23




MbDA InstItutEs pOlICy CHAnGEs In rEspOnsE tO rEvIEW Of rEGIOnAl
lOCAl trAvEl prACtICEs

In response to a congressional request, our office reviewed travel reimbursement documents and
policies for MBDA’s Chicago regional office and identified several internal control weaknesses in
its processing of travel reimbursements. Our investigation found that between October 1, 2008,
and May 25, 2011, eight employees of MBDA’s Chicago office, including the regional director,
received reimbursements totaling approximately $25,700 for travel expenditures. These were
claimed in a total of 551 vouchers, which appear to encompass both local cab fares (e.g., in
or around Chicago) and cab fares while on agency-approved travel outside the local area. We
identified internal control issues related to how travel vouchers are reviewed and approved and
made several recommendations to MBDA. In response to our findings, MBDA revised its Financial
Management Guide and now requires supervisory approval of travel vouchers for all MBDA staff,
as well as receipts for all travel expenses.
24   Office of Inspector General | Semiannual Report to Congress | March 2013




       nAtIOnAl InstItutE Of stAnDArDs
       AnD tECHnOlOGy



       The national Institute of standards and technology promotes
       U.S. innovation and industrial competitiveness by advancing
       measurement science, standards, and technology in ways that enhance
       economic security and improve our quality of life. NIST carries out its
       mission via three cooperative programs.

       NIST Laboratories—Conduct research that advances the nation’s
       technology infrastructure and is needed by U.S. industry to continually
       improve products and services.

       Hollings Manufacturing Extension Partnership—Works with
       small- and mid-sized U.S. manufacturers through a nationwide network
       of 350 field offices to help them create and retain jobs, expand into new
       markets and new products, increase profits, and save time and money.

       Baldrige Performance Excellence Program—Promotes
       performance excellence among U.S. manufacturers, service companies,
       educational institutions, health care providers, and nonprofit
       organizations through outreach programs and the annual Malcolm
       Baldrige National quality Award.
                                                                   National Institute of Standards and Technology   25




fOrMEr nIst EMplOyEE OrDErED tO rEpAy fEDErAl GOvErnMEnt

In March 2013, based on the results of OIG’s investigation, NIST sent a collection letter to a
former employee ordering repayment of $10,221.97 for expenses she improperly charged to her
government purchase card. The employee had previously resigned from federal service and signed
a resolution agreement stating she would be liable for any debt established during her federal
employment.

nIst EMplOyEE rEsIGns AftEr COMMIttInG EtHICAl vIOlAtIOns

During this semiannual reporting period, an official at NIST’s Gaithersburg campus resigned
from service after our investigation determined he had engaged in multiple ethics violations and
had maintained improper content on his government e-mail account, including racially offensive
material and pornographic content. Our office initiated the investigation following concerns of
a large copper theft ring originating at NIST and found internal control deficiencies regarding
the procurement, inventory, use, and recycling of materials from NIST’s Facilities Management
Division, creating opportunity for widespread copper theft, which may have involved the official.
In the course of our investigation, we learned of several improprieties on the part of the official and
identified several violations of the Standards of Ethical Conduct for Employees of the Executive
Branch, leading to the supervisor’s resignation. This case originated from a hotline complaint.
26   Office of Inspector General | Semiannual Report to Congress | March 2013




     nAtIOnAl OCEAnIC AnD
     AtMOspHErIC ADMInIstrAtIOn



     The National Oceanic and Atmospheric Administration mission is to
     understand and predict changes in Earth’s environment, as well as conserve
     and manage coastal and marine resources to meet our nation’s economic,
     social, and environmental needs. NOAA does this through six line offices.

     National Environmental Satellite, Data, and Information Service—
     Observes the environment by operating a national satellite system.

     National Marine Fisheries Service—Conducts a program of
     management, research, and services related to the protection and rational use
     of living marine resources.

     National Ocean Service—Provides products, services, and information
     to promote safe navigation, support coastal communities, sustain marine
     ecosystems, and mitigate coastal hazards.

     National Weather Service—Reports the weather of the United States and
     provides weather forecasts and warnings to the general public.

     Office of Oceanic and Atmospheric Research—Conducts research
     related to the oceans and Great lakes, the lower and upper atmosphere,
     space environment, and the earth.

     Office of Program Planning and Integration—Develops and
     coordinates NOAA’s strategic plan, supports organization-wide planning
     activities, guides managers and employees on program and performance
     management, and integrates policy analysis with decision making.
                                                               National Oceanic and Atmospheric Administration                            27




nOAA nEEDs tO COntInuE strEAMlInInG tHE rulEMAkInG prOCEss AnD
IMprOvE trAnspArEnCy AnD COnsIstEnCy In fIsHErIEs MAnAGEMEnt
(OIG-13-011-I)

In August 2011, Congressmen Barney Frank and John F. Tierney
asked OIG to review controls and processes used by NOAA’s                     Magnuson-Stevens Fishery 

Fishery Management Councils (FMCs) to develop rules for
the commercial fishing industry—known as fishery rulemaking.
                                                                              Conservation and Management Act

The request was prompted by concerns that NOAA’s National
                                                                              The legislation that directs how NOAA manages the
Marine Fisheries Service (NMFS) had abandoned its core
                                                                              nation’s fisheries and the principal law that governs the
missions of “development of the commercial fishing industry” and
                                                                              fishery rulemaking process is the Magnuson-Stevens
“increasing industry participation.” We are conducting this review
                                                                              Fishery Conservation and Management Act (MSA).
of rulemaking in several phases and plan to generate additional
                                                                              A primary goal of the MSA is to end and prevent
reports. In this first phase, we evaluated the role of NOAA and the
                                                                              overfishing through the use of annual catch limits and
FMCs in the fishery rulemaking process and the transparency of
                                                                              accountability measures.
the rulemaking process prescribed under the Magnuson-Stevens
Fishery Conservation and Management Act. Subsequent products                  Eight regional Fishery Management Councils, established
will look further into NOAA and the FMCs and the rules they                   by the MSA, work with NOAA and the public to prepare
develop.                                                                      and maintain fishery management plans for fisheries
                                                                              under their authority. Fishery management plans are
We found the following:                                                       intended to preserve and repair fisheries while minimizing
                                                                              adverse effects on dependent communities through
•	 FMC voting members’ financial disclosures do little to increase
                                                                              a formal process that incorporates scientific data, the
   transparency and lack effective review.
                                                                              knowledge of council members and advisory bodies, and
•	 NMFS has not fully implemented regulatory streamlining                     public input.
   remedies.
•	 Maintenance of rules packages and administrative records
   needs to be consistent.
                                                                         fishery Management rulemaking
We recommended that the Assistant Administrator for
NOAA Fisheries
                                                                               Magnuson-Stevens Act
•	 strengthen policy guidance on financial disclosure by FMC                        Reauthorized in 2006
   voting members, with emphasis on how NOAA intends
   to handle specific consequences for conflicts or potential
   conflicts it identifies;
•	 strengthen processes for formal reviews of financial interest         Fishery Management Councils
   disclosures, considering the time period that the disclosure                With input from stakeholders
   covers, how financial interest amounts relate to voting                     propose ﬁshery management
   restrictions, and when affiliations with outside organizations                      alternatives
   should be reported;
•	 strengthen criteria for identifying conflicts of interest and
   processes to follow up on any conflicts that are identified;
•	 finalize draft Operational Guidelines and provide them to                Fishery Management Plans
   NMFS regional offices;                                                    Required by the MSA to manage
                                                                             stocks of ﬁsh off the U.S. coast
•	 finalize regional operating agreements between NMFS
   regional offices and FMCs; and
•	 develop uniform procedures for the collection, management,
   and maintenance of documents supporting decisions and                  Fishery Management Actions
   administrative records associated with fishery regulations.
                                                                                   Implemented by NMFS

                                                                         Source: OIG
28   Office of Inspector General | Semiannual Report to Congress | March 2013




     lEttEr tO rEprEsEntAtIvE jOnEs rE: nAtIOnAl MArInE fIsHErIEs sErvICE’s
     rEspOnsE tO tHE 2006 DIsCOvEry Of A nOrtH AtlAntIC rIGHt WHAlE
     CAlf CArCAss

     In response to a congressional request, OIG examined issues related to NMFS’ response to the
     January 2006 discovery of a dead North Atlantic right whale calf off the coast of Jacksonville,
     Florida. The North Atlantic right whale is designated as an endangered species under the
     Endangered Species Act (ESA) and listed as depleted under the Marine Mammal Protection
     Act (MMPA). historically, right whale populations were depleted by commercial whaling; more
     recently, however, vessel collisions and entanglement in fishing gear have contributed to their lack
     of recovery.

     As part of our inquiry, we reviewed the temporary, emergency, and final rules that NMFS enacted
     under the MMPA and the ESA. These rules severely restricted the activities of fishermen using
     small mesh gill nets to target whiting in the Southeastern U.S. critical habitat for northern right
     whales during annual restricted periods associated with the right whale calving season. We also
     reviewed the March 2006 necropsy (autopsy) report and scientific journal articles on large whale
     (including right whale) entanglements, and interviewed representatives of the whiting component
     of the Southeast Atlantic gillnet fishery, the necropsy team lead, and various NMFS officials. Our
     efforts alerted us to several matters that we felt warranted further action.

     We found a January 2006 letter in which the humane Society of the United States (hSUS) urged
     NMFS to close gillnet fisheries in the Southeast U.S. Restricted Area immediately, indicating that
     hSUS had been made privy to the preliminary necropsy results. While we did not find that NMFS
     officials communicated with hSUS concerning the necropsy findings, the necropsy team lead
     said it was possible that he conveyed this information to hSUS and that he was unaware of any
     confidentiality provision restricting him from doing so. Accordingly, we recommended that NMFS
     establish protocols to safeguard the integrity of such information in the future so as to ensure full
     compliance with NOAA’s Information quality Guidelines and the Federal Information quality Act.

     We examined information related to NMFS’ and the Department’s Office of General Counsel’s
     (OGC’s) respective processing of a January 2007 Freedom of Information Act (FOIA) request
     and subsequent March 2008 appeal submitted by representatives of the whiting component of
     the Southeast Atlantic gillnet fishery. We found that NMFS failed to meet FOIA’s 20-business day
     response period by 6 weeks, while OGC responded to the associated appeal 23 months late. As
     such, we recommended that both offices streamline and coordinate their FOIA processes so that
     they are better able to meet these statutory guidelines.

     We also found that after the FOIA requesters asked for a fee waiver, NMFS changed their
     classification from “other” to “commercial,” raising concerns that NMFS sought to penalize the
     requesters for seeking the waiver. While we did not find evidence to suggest that this action was
     improper or that it adversely impacted the requesters in this case, we recommended that NMFS
     ensure that it properly categorizes FOIA requesters in accordance with FOIA at the outset when it
     determines that FOIA fees will be charged to avoid the appearance of impropriety.

     Finally, we found that OGC could not determine in the course of the appeal process whether
     NMFS wrongly withheld records from the FOIA requesters, because OGC could not ascertain
     from the records it was provided how NMFS applied particular FOIA exemptions to withhold
     entire records. While neither FOIA nor the Department’s FOIA regulations require that this
     information be provided to OGC, an OGC attorney said that not doing so is a problem because
     it slows down the appeal process. The chief of OGC’s General law Division reported that OGC
     attorneys are working with NOAA’s FOIA coordinator and various NMFS personnel to improve this
     and other shortcomings that OGC has observed in NMFS’ processing of FOIA requests.
                                                                National Oceanic and Atmospheric Administration   29




tWO fOrMEr ExECutIvE DIrECtOrs Of AlAskA EskIMO WHAlInG
COMMIssIOn sEntEnCED fOr frAuD

In November and December 2012, two former executive directors for the Alaska Eskimo Whaling
Commission (AEWC) were sentenced to 41 months, and 6 months in prison, respectively, for
their roles in defrauding AEWC. They were also ordered to pay restitution in the amounts of
$383,193.90 and $100, 339. AEWC had received grant funds from NOAA for implementing
a whaling weapon improvement plan, undertaking a census of whale species, and paying for
employees and commissioners to attend International Whaling Commission and AEWC meetings.
Previously, in the September 2012 Semiannual Report, we reported on the guilty pleas entered
by the two former AEWC executive directors for counts of fraud and money laundering. Our joint
investigation with the FBI and the Internal Revenue Service disclosed that in 2007 and 2008 the
former executive directors misapplied over $600,000.

nOAA EMplOyEE rEprIMAnDED fOr IMprOpEr usE Of GOvErnMEnt
OWnED vEHIClEs

In February 2013, NOAA issued a letter of Caution to a NOAA law enforcement officer for
repeated improper incidental use of a government vehicle for personal errands both on his way to
and from work over the course of a number of years. As a response to our investigation, NOAA
instituted new policies and procedures with respect to use of government vehicles, including a
prohibition on home-to-work vehicles.

sCIEntIst fOrMErly On AssIGnMEnt tO nOAA sEntEnCED fOr ClEAn WAtEr
ACt vIOlAtIOn

In March 2013, an engineer formerly assigned to NOAA’s National Environmental Satellite, Data,
and Information Service was sentenced to 2 years’ probation after pleading guilty to discharging
fill material into the Chesapeake Bay without a permit, in violation of the Clean Water Act.
Further, the engineer was ordered to remove, at his own expense, all fill material discharged
into the Chesapeake Bay. Our office provided the forensic analysis support for the case, jointly
investigated by the Environmental Protection Agency–Criminal Investigative Division and the U.S.
Fish and Wildlife Service, Office of law Enforcement. The investigation determined the engineer
had discharged fill material from his home into the Chesapeake Bay, scraping away significant soil
on the cliff face and interfering with the critical habitat of the Puritan Tiger Beetle, an endangered
species as identified by the Endangered Species Act.

nOAA EMplOyEE rEtIrEs fOllOWInG fInDInGs Of MIsMAnAGEMEnt

During this semiannual reporting period, a NOAA employee retired from federal service after our
investigation found the employee had engaged in poor contract management and failed to effect
strong internal controls for procurements. In particular, we found the employee had engaged
in questionable noncompetitive contracting practices, unauthorized procurement actions, and
potential organizational conflicts of interest. Further, in the course of our investigation, we found
the employee demonstrated an evident lack of candor regarding his knowledge and involvement in
these activities.
30   Office of Inspector General | Semiannual Report to Congress | March 2013




     nAtIOnAl tElECOMMunICAtIOns
     AnD InfOrMAtIOn ADMInIstrAtIOn



     The national telecommunications and Information
     Administration serves as the executive branch’s principal adviser
     to the President on domestic and international telecommunications
     and information policy issues. NTIA manages the federal use
     of the electromagnetic spectrum, provides grants for national
     information and public broadcasting infrastructure projects, and
     performs telecommunications research and engineering. It works to
     enhance citizens’ access to cable television, telephone, and other
     telecommunications services and educates state and local governments
     and other entities on ways to use information technology and
     telecommunications more effectively.
                                                          National Telecommunications and Information Administration                31




fOurtH AnnuAl AssEssMEnt Of tHE psIC GrAnt prOGrAM (OIG-13-016-A)

Our assessment found that, overall, NTIA is providing effective oversight of PSIC grants. however,
we identified instances where additional communication from NTIA to recipients could have
clarified the unique requirements of this grant program, resulting in greater recipient compliance.
In addition, although NTIA faced many significant challenges in administering this grant
program, a higher level of monitoring by NTIA could have prevented many instances of recipient
noncompliance that we found. In particular, the number of late report submissions and necessary
approvals and authorizations could have been reduced with improved continuous trend analysis
monitoring.

We identified two common areas of concern: (1) unallowable costs and (2) internal control
weaknesses in the areas of noncompliance with reporting requirements, compliance with grant
requirements, subrecipient monitoring, and cost-match monitoring.

We made the following recommendations to the Assistant Secretary for Communications and
Information:

1.	 Pursue the recovery of questioned unallowable costs for each grant recipient and determine
    the most appropriate process to recover questioned costs in the future.

2.	 Require recipients to submit all necessary reports in conformance with grant terms and
    conditions.

3.	 Institute a routine follow-up process with recipients, to ensure that grant requirements are
    understood and met.

4.	 Strengthen existing requirements for grant recipients to perform subrecipient monitoring.

5.	 Calculate the impact of the unrealized cost match on the PSIC program and alert those
    recipients who have not met this match of their responsibilities under their grants.

6.	 Document the follow-up conducted with PSIC grant recipients on recommendations included
    in appendices to this report.

We included recommendations addressing internal control weaknesses, as well as other state
recommendations, in the report’s appendices.



   Public Safety Interoperable Communications Program

   The Public Safety Interoperable Communications (PSIC) program is a nearly $1 billion formula-based matching grant program.       

   PSIC enables public safety agencies to establish interoperable emergency communication systems using reallocated radio spectrum. 


   NTIA, in consultation with the Department of homeland Security, executes PSIC. NTIA awarded PSIC grants to all 50 states,            

   5 territories, and the District of Columbia in amounts ranging from $692,000 to $94 million.


   The Implementing Recommendations of the 9/11 Commission Act of 2007 (P.l. 110-53) requires OIG to annually assess NTIA’s
   management of PSIC and to transmit findings to the house Committee on Energy and Commerce and the Senate Committee on
   Commerce, Science, and Transportation. Also, Congress specified that 25 financial audits be conducted on the PSIC program.
   We previously reported the results of 9 PSIC financial audits. The Fourth Annual Assessment of the PSIC Grant Program consolidates
   the results of the remaining 16 financial audits.
32   Office of Inspector General | Semiannual Report to Congress | March 2013




     EnGInEErInG COnsultAnt On ntIA GrAnt plEADs GuIlty tO fElOny tHEft
     Of GrAnt funDs

     In November 2012, an engineering consultant on an NTIA grant pled guilty to one felony count
     of violating 18 U.S.C. § 641, Theft of Public Money, and agreed to repay the U.S. Treasury
     $190,396 in restitution. The engineering consultant, scheduled for sentencing in April 2013, faces
     a fine of up to $250,000, a maximum of 10 years in prison, or both, as well as up to 3 years of
     supervised release. Our office opened this case based on information referred by NTIA regarding
     suspicious activity observed on a 2009 Public Telecommunications Facilities Program grant for
     the construction and operation of a radio station on a Navajo reservation in the Shiprock, New
     Mexico, area. Our investigation determined the engineering consultant had misappropriated grant
     funds for personal use. Specifically, he named himself as the authorized person for the drawdown
     of grant funds and wired nearly all of the $322,364 grant award to his personal bank account. he
     subsequently used the grant funds for personal purposes such as dining, foreign and domestic
     travel, retail goods, and the purchase of a car. OIG traced the stolen grant funds and seized
     $131,964, which was returned to the U.S. Treasury.
33
34   Office of Inspector General | Semiannual Report to Congress | March 2013




     unItED stAtEs pAtEnt
     AnD trADEMArk OffICE



     The united states patent and trademark Office administers the
     nation’s patent and trademark laws. Patents are granted and trademarks
     registered under a system intended to provide incentives to invent,
     invest in research, and commercialize new technology. USPTO also
     collects, assembles, publishes, and disseminates technological
     information disclosed in patents.
                                                                   United States Patent and Trademark Office         35




usptO DEplOyED WIrElEss CApAbIlIty WItH MInIMAl COnsIDErAtIOn fOr It
sECurIty (OIG-13-014-A)

We evaluated the Public and Enterprise Wireless local Area Network (PEWlAN) as part of our
Fy 2012 Federal Information Security Management Act of 2002 (FISMA) audit. Our objective was
to assess the effectiveness of USPTO’s IT security program by determining whether key security
measures adequately protect its systems and its information. To
do so, we assessed security measures USPTO employed during
development of its PEWlAN system.                                      PEWlAN
When we began our audit in June 2012, USPTO insisted that             The PEWlAN system provides wireless access
PEWlAN was under development and was not operational,                 on USPTO’s Alexandria, Virginia, campus.
requesting that we wait until 2013 to review the system. however,     Through PEWlAN, USPTO employees and
we independently verified that USPTO had inappropriately              contractors access internal USPTO systems
connected PEWlAN to its operational environment (e.g.,                and information, which can include financial
production systems and critical information). We also determined      and patent application data.
that USPTO placed PEWlAN into operation—despite serious
security weaknesses and significant vulnerabilities—and had not
implemented the required security controls and conducted proper
control assessment as defined by FISMA. Thus, USPTO put its critical operational systems at risk.

We made the following recommendations to the Under Secretary of Commerce for Intellectual
Property and Director of the U.S. Patent and Trademark Office:

1.	 Ensure that system owners register all systems under development in Cyber Security
    Assessment and Management during the initiation phase of the system development life
    cycle (SDlC).

2.	 Ensure that USPTO rigorously applies its SDlC process and the risk management framework
    to all IT system development projects. This should include ensuring that required system
    security documents are appropriately developed and updated and that security controls
    required to protect a system are implemented and assessed.

3.	 Ensure that system owners, information system security officers, technical leads, project
    managers, and program managers attend the SDlC role-based training course regularly.

4.	 Ensure that the Cybersecurity Division representatives have a role in deciding whether IT
    system development projects should transition to a subsequent phase in the SDlC, based
    on their assessment of the effectiveness of incorporating security into the process.

fy 2012 fInAnCIAl stAtEMEnt AuDIt (OIG-13-004-A, OIG-13-005-A)

Independent auditor kPMG llP found that USPTO’s Fy 2012 financial statements were fairly
presented in all material respects and in conformity with U.S. generally accepted accounting
principles. During the audit, kPMG also assessed the IT controls supporting financial management
systems. kPMG found one significant deficiency related to controls over general information
technology; this deficiency was not considered a material weakness. (A significant deficiency in
internal control exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and
correct misstatements on a timely basis, and merits attention by those charged with governance.)
USPTO needs to continue improving its IT general control environment to ensure that financial
data processed on USPTO’s systems are complete, reliable, and have integrity. kPMG found no
instances of reportable noncompliance with applicable laws, regulations, and contracts.
36   Office of Inspector General | Semiannual Report to Congress | March 2013




     AMErICAn rECOvEry
     AnD rEInvEstMEnt ACt



     The Recovery Act—signed into law by President Barack Obama on
     February 17, 2009—had three immediate goals: (1) create new jobs
     and save existing ones, (2) spur economic activity and invest in long-
     term growth, and (3) foster unprecedented levels of transparency and
     accountability.

     Five Department of Commerce bureaus—the Census Bureau, EDA,
     NIST, NOAA, and NTIA—and OIG received $7.9 billion under the Act,
     with $1.2 billion ultimately rescinded or transferred to other agencies.
     As of March 31, 2013, the Department had obligated almost all of the
     approximately $6.7 billion remaining and disbursed approximately $5.4
     billion. (The disbursal amount includes funding for the now-completed
     NTIA Digital Television Converter Box Coupon Program.)
                                                                                                                 American Recovery and Reinvestment Act                         37




OIG rECOvEry ACt OvErsIGHt, fEbruAry 2009–MArCH 2013

Funded by $16 million for proactive oversight of the Department’s Recovery Act programs and
activities, OIG has been evaluating whether agencies are using Recovery Act funds efficiently and
effectively and following up on complaints, including whistleblower reprisal allegations.

                 key Activities                                                                                               Cumulative results

                 Published audit and evaluation reports                                                                                       22
                 Other work products (correspondence to Congress and the Recovery
                 Accountability and Transparency Board)                                                                                           7
                 Audits/evaluations in progress                                                                                                   2
                 OIG recommendations for action, correction, or improvement                                                                   88
                 Recommendations implemented to take corrective action by making
                 improvements, reducing risk, or preventing waste                                                                             58
                 Investigations completed                                                                                                     24
                 Investigations in progress                                                                                                       5
                 Whistleblower reprisal allegations received                                                                                  12
                 Whistleblower reprisal allegations accepted                                                                                      6
                 Debarments and corporate compliance agreements implemented                                                                       0
                 Proactive training and outreach sessions held                                                                               129
                 Individuals trained                                                                                                       6,624
                 hours of training provided                                                                                                8,259


COMMErCE burEAus’ rECOvEry ACt OblIGAtIOns AnD DIsbursEMEnts
As Of MArCH 31, 2013

                        $4,500                                                                                                             100%       100%
                                                                                                    95%
                                                                  93%
                                 $4,129                                                                              95%

                                                                                                                                                      90%
                        $4,000                  89%

                                                                                   87%
                                                                                                                       Total Obligations

                                                                                                                       Total Disbursements            80%
                        $3,500
                                                                                                                       % Disbursed

                                          71%                                                                                                         70%
                        $3,000        $2,931



                                                                                                                                                      60%
Dollars (in Millions)




                                                                                                                                                            Percent Disbursed




                        $2,500

                                                                                                                                                      50%

                        $2,000

                                                                                                                                                      40%


                        $1,500
                                                                                                                                                      30%


                                                                                                                                  $996 $995
                        $1,000
                                                                                                                                                      20%



                         $500
                                                 $360                                                                                                 10%
                                                        $320
                                                                $249 $231       $250 $218         $230 $220
                                                                                                                  $145 $138

                           $0                                                                                                                         0%
                                   NTIA            NIST           NIST            NOAA              NOAA            EDA              Census
                                                Construction    Research       Procurement,       Operations,
                                                               and Services   Acquisition, and   Research, and
                                                                               Construction        Facilities 
38                           Office of Inspector General | Semiannual Report to Congress | March 2013




                             prOpEr ClAssIfICAtIOn AnD str EnGtHEnED MOnItOrInG Of subrECIpIEnts
                             ArE n EEDED fOr tHE b rOADbAnD tECHnOlOGy OppOrtunItIEs prOGrAM
                             (OIG-13-013-A)

                           At the conclusion of the Broadband Technology Opportunities Program (BTOP) award process
                           on September 30, 2010, NTIA had awarded 233 grants. Over time, this number has decreased
                           slightly to 225 due to grant cancellations, modifications, and terminations. As of January 26,
                                                           2012, when OIG initiated this audit, the FederalReporting.gov
                                                           data extract reported 217 BTOP awards with payments and
                                                           disbursements greater than $100,000. Recipients responsible for
The Recovery Act         and Broadband
                                                           approximately $3.8 billion in BTOP awards reported subrecipient
                                                           awards of $850 million and vendor payments of $602 million.
The Recovery Act gave $4.7 billion to NTIA to establish
BTOP, a competitive grant program intended to provide
                                                                    For this audit, we reviewed 56 of these awards, totaling $1.9
funds for deploying broadband infrastructure in the
                                                                    billion. We divided the recipients into subgroups based on whether
United States in order to enhance broadband capacity at
                                                                    they made payments and disbursements to subrecipients, vendors,
public computing centers, improve access to broadband
                                                                    or both. Effective monitoring of subrecipients is necessary to
services for public safety agencies, promote sustainable
                                                                    ensure that project costs are allowable, allocable, and reasonable
broadband adoption projects, and develop an interactive
                                                                    and that program goals are achieved. Recipients, rather than NTIA,
map showing broadband capabilities and availability.
                                                                    are directly responsible for the oversight of subrecipients. NTIA, in
                                                                    turn, is responsible for ensuring that recipients effectively oversee
Since enactment of the law, OIG has provided oversight
                                                                    their projects. This includes ensuring that the recipient adequately
of NTIA’s administration of this program. The Recovery
                                                                    selects subrecipients and has controls in place to effectively and
Act requires BTOP grantees to provide at least a 20
                                                                    efficiently monitor the projects.
percent nonfederal matching share.

                                                            While NTIA and the recipients of BTOP awards have taken steps
                                                            to oversee subrecipients, additional operating procedures should
                             be implemented. We reviewed 56 awards to determine whether entities had been classified
                             properly as vendors or subrecipients and performed testing on 26 awards to assess the
                             effectiveness of subrecipient monitoring. Specifically, our audit found the following:

                             •	 Two of the 56 awards reviewed (4 percent) have a vendor that may not be properly classified.
                             •	 Eleven of 26 awards reviewed (42 percent) may not be completed on time.
                             •	 Subrecipient monitoring plans are not in place for 3 of 26 awards reviewed (12 percent).
                             •	 Seven of 26 subrecipient agreements reviewed (27 percent) do not contain all required
                                provisions.
                             •	 For 15 of 56 awards reviewed (27 percent), recipients are not reporting required information to
                                FederalReporting.gov.


                             lEttEr tO r EprEsEntAtIvEs WAlDEn AnD s HIMkus rE: rEvIEW Of ntIA’s
                             btOp GrAnt AWArD tO tHE ExECutIvE OffICE Of stAtE Of WE st vIrGInIA
                             (OIG-13-012-I)

                             In January 2013, the Inspector General responded to a request from the chairmen of house
                             Energy and Commerce Subcommittees on Communication and Technology and on Environment
                             and the Economy to review a $126 million BTOP grant awarded by NTIA in 2010 to the Executive
                             Office of the State of West Virginia (EOWV). The grant was for the creation of a fiber and radio
                             broadband network to serve community anchor institutions formerly not connected and improve
                             existing bandwidth to these public facilities, as well as emergency responder networks. Members
                             of the Subcommittee on Communications and Technology raised concerns about the BTOP grant
                             awarded to EOWV at a May 2012 hearing on broadband grants and loans and requested that
                             OIG conduct additional analysis.
                                                                      American Recovery and Reinvestment Act           39




OIG found that EOWV could have better managed its execution of its $126.3 million BTOP
grant. Specifically, EOWV did not demonstrate the most efficient use of BTOP funds to purchase
routers, nor did it effectively manage and track router inventory. It also did not execute agreements
for the receipt of federal property. however, OIG did not find any material misrepresentations in
EOWV’s submitted application. OIG also found that, prior to issuance of the award, NTIA followed
its defined process to evaluate the application submitted by EOWV, a process that both OIG and
GAO found to be reasonable in separate reports.

COnGrEssIOnAl tEstIMOny (OIG-13-017-t)

On February 27, 2013, the Principal Assistant Inspector General for Audit and Evaluation testified
about OIG’s continued oversight of BTOP, as well as the challenges that NTIA faces in its
oversight of BTOP projects as they are completed and the grant awards closed out.

The Principal Assistant IG described OIG’s oversight efforts,
which have (1) assessed the establishment, implementation, and             “For the Department to ensure effective
program operations of BTOP and (2) reviewed specific issues
                                                                           implementation of BTOP, especially in
with some individual awards. At the time of her testimony, OIG’s
work included 10 published products and 44 recommendations                 light of fulfilling OMB and legislative
developed to improve the administration of BTOP and monitoring             requirements, OIG and NTIA will
of approximately $4 billion in grant awards. She added that OIG            need Congress to continue your
has also provided training to NTIA and grant recipients on the
                                                                           oversight efforts.”
need for compliance with award terms; conducted nonfederal
audit reviews of single and program-specific audit reports; and            Principal Assistant IG testimony before a
established procedures to closely monitor, follow up on, and               house Energy and Commerce Subcommittee,
analyze trends for hotline complaints.                                     February 27, 2013

The Principal Assistant IG concluded by addressing five
challenges facing NTIA:

•	 Some BTOP projects are at risk of not being completed by September 30, 2013.
•	 Additional monitoring of equipment may be needed.
•	 Findings from OIG and nonfederal audits require close attention.
•	 NTIA needs to address challenges associated with the First Responder Network Authority
   (FirstNet) program and BTOP public safety projects that were affected by its establishment.
•	 Effective oversight remains essential as awards are closed out.
40   Office of Inspector General | Semiannual Report to Congress | March 2013




     WOrk In
     prOGrEss


     WOrk In prOGrEss (by OvErsIGHt ArEA)

     During this reporting period, 19 OIG audit and evaluation projects were initiated or underway.




             7


                              5



                                                2                 2
                                                                                1      1           1

      Department­wide       NOAA              USPTO         Recovery Act a      EDA   ESA b       NIST



     a Both Recovery Act-related works in progress concern NTIA.
     b The ESA work in progress concerns the Census Bureau.




     DEpArtMEnt-WIDE

     Department’s Management of Classification policies and procedures
     Assess whether applicable classification policies, procedures, rules, and regulations have been
     adopted, followed, and effectively administered. Identify policies, procedures, rules, regulations,
     and management practices that may be contributing to persistent misclassification of material.

     Department’s Incident Detection and response Capabilities
     Determine whether key security measures are in place to adequately monitor networks, detect
     malicious activities, and handle cyber incidents.

     purchase Card Controls
     Determine whether the Department has adequate transaction-level internal controls over purchase
     card transactions by reviewing a sample from all bureaus during Fy 2011, when the Department
     had more than 4,500 purchase cards and processed approximately $118.6 million in purchase
     card transactions.

     time-and-Materials and labor-Hours (t&M/lH) Contracts
     Assess whether the Department properly awards and administers these contracts (for Fy 2011,
     the Department awarded 2,893 high-risk T&M/lh contract actions for $586 million).
                                                                                         Work in Progress   41




unliquidated Obligations
Evaluate controls over the management and closeout of unused or unneeded (unliquidated)
obligations.

letter to Congressional bicameral task force on Climate Change
Respond to a congressional request to review the Department’s policies, environmental program,
and activities to carry out requirements that federal agencies address climate change. Assess the
Department’s authority to reduce emissions of heat-trapping pollution and make the nation more
resilient to the effects of climate change, as well as the most effective additional steps that could
be taken to reduce emissions and strengthen resiliency.

fy 2013 Audit of the Department’s financial statements
Determine whether the financial statements are presented fairly, in all material respects, in
accordance with generally accepted accounting principles (the audit will also consider the
Department’s internal controls over financial reporting and test compliance with certain provisions
of laws, regulations, and contracts that could have a direct and material effect on the financial
statements).


ECOnOMIC DEvElOpMEnt ADMInIstrAtIOn

Audit of EDA’s It security program
Assess, as part of our Fy 2012 Federal Information Security Management Act of 2002 audit, the
effectiveness of EDA’s IT security program, determine the significant factors that contributed to
the cyber compromise of EDA’s information systems, and evaluate activities either completed or
planned to reconstitute its information systems to support critical operational requirements.


ECOnOMICs AnD stAtIstICs ADMInIstrAtIOn

Census 2020 redesign
Review the status of the Bureau’s Census 2020 redesign. Determine whether Census Bureau
governance and internal controls are adequate; assess implementation of each research project,
including time frames for completion and deliverables; and assess the Bureau’s approach to
evaluating each project, including whether accurate and reliable data will be available.


nAtIOnAl InstItutE Of stAnDArDs AnD tECHnOlOGy

review of fys 2011 and 2012 Manufacturing Extension partnership (MEp)
Conference spending
Review federal spending at MEP conferences in Fys 2011 and 2012, including the May 2012
conference, to determine the legitimacy and reasonableness of related charges.


nAtIOnAl OCEAnIC AnD AtMOspHErIC ADMInIstrAtIOn

results of Commerce OIG’s Online survey of fishery Management Council (fMC)
Members and staff
In response to a request from Congressmen Barney Frank and John F. Tierney, review fisheries
management at NOAA and eight regional FMCs regarding interactions with NOAA’s National
Marine Fisheries Service; regulatory requirements; interactions with the fishing industry and
nongovernment organizations; FMC operations and training; and rules of conduct, conflict of
interest, and ethics.
42   Office of Inspector General | Semiannual Report to Congress | March 2013




     review of nOAA’s Catch share program
     In response to Congressmen Frank and Tierney, review fisheries management at NOAA and eight
     regional FMCs regarding NOAA’s catch share programs (i.e., allocation of the total allowable
     fishery catch or a specific fishing area to individuals, cooperatives, communities, or other entities)
     to determine the adequacy of related NOAA controls and processes.

     Actions taken to Correct Deficiencies leading to budget reprogramming requests
     In response to a June 2012 request from the U.S. Senate to review materials and findings from a
     May 2012 internal inquiry report prepared by the Department, determine the adequacy of actions
     taken by NOAA in addressing issues arising from Fy 2012 reprogramming requests.

     joint polar satellite system (jpss) Implementation risks
     Review the adequacy of JPSS development activities, including the flight, ground, and “free-flyer”
     projects, as the program completes system definition and transitions to implementation per NOAA
     and NASA standards. Monitor NOAA’s overall progress in establishing the program’s capabilities
     (requirements), schedule, and cost baselines by the end of summer 2013 and its efforts in
     mitigating the projected data gap between Suomi National Polar-orbiting Partnership satellite’s
     end-of-design life and the planned operational availability of the first JPSS satellite (JPSS-1).

     Audit of nOAA’s It security program
     Assess, as part of our Fy 2013 FISMA audit, the effectiveness of NOAA’s information security
     program by determining whether key security measures adequately protect NOAA’s systems.


     unItED stAtEs pAtEnt AnD trADEMArk OffICE

     leahy-smith America Invents Act (AIA) Implementation and lessons learned
     Evaluate the effectiveness of USPTO’s efforts to train employees and provide the IT infrastructure
     to implement provisions of the AIA. Review whether and to what extent USPTO is collecting
     the necessary information to provide Congress with an assessment of AIA implementation
     due by September 2015. Review whether and how USPTO will incorporate lessons learned
     while implementing initial AIA provisions. Review the extent to which USPTO is carrying out the
     expansion of satellite offices in a cost-effective manner and in accordance with relevant regulations.

     fy 2013 financial statement Audit
     Determine whether the financial statements are presented fairly, in all material respects, in
     accordance with generally accepted accounting principles (the audit will also consider the bureau’s
     internal controls over financial reporting and test compliance with certain provisions of laws,
     regulations, and contracts that could have a direct and material effect on the financial statements).


     AMErICAn rECOvEry AnD rEInvEstMEnt ACt

     broadband technology Opportunities program (btOp) Equipment review
     Determine whether NTIA has the personnel and processes in place to monitor BTOP grantees’
     equipment acquisitions; assess whether grantees have appropriately acquired, tested, and
     implemented the most effective equipment; and evaluate whether grantees are on track to
     complete BTOP projects on schedule and achieve project goals.

     btOp Award Closeout Audit
     Determine whether the NTIA has established adequate policies and procedures to effectively
     close out the approximately 230 BTOP awards (valued at approximately $3.8 billion) and assess if
     closeout procedures are being followed as the awards are completed and closed.
Work in Progress   43
44   Office of Inspector General | Semiannual Report to Congress | March 2013




     stAtIstICAl DAtA


     The Inspector General Act Amendments of 1988 require us to present the statistical data
     contained in Tables 1–8.

       tAblEs	                                                                                      page

       1. Office of Investigations Statistical highlights for This Period 	                          44


       2. Audit Resolution and Follow-up 	                                                           45


       3. Audit and Evaluation Statistical highlights for This Period 	                              46


       4. Audits with questioned Costs 	                                                             47


       5. Audits with Recommendations That Funds Be Put to Better Use 	                              48


       6. Report Types for This Period 	                                                             48


          6-a. Performance Audits                                                                    49


          6-b. Financial Statement Audits                                                            49


          6-c. Evaluations and Inspections                                                           50


       7. Single Audit and Program-Specific Audits 	                                                 51


          7-a. Processed Reports with Material Audit Findings                                        52


       8. Audits Unresolved for More Than 6 Months 	                                                 53



     tAblE 1. OffICE Of I nvEstIGAtIOns stAtIstICAl HIGHlIGHts fOr tHIs pErIOD

     Investigative activities cover investigations opened and closed by OIG; arrests by OIG
     agents; indictments and other criminal charges filed against individuals or entities as a result of
     OIG investigations; convictions secured at trial or by guilty plea as a result of OIG investigations;
     and fines, restitution, and all other forms of financial recoveries achieved by OIG as a result of
     investigative action.

     Allegations processed presents the number of complaints from employees, stakeholders, and
     the general public that were handled by our Complaint Intake Unit. Of these, some resulted in
     the opening of investigations; others were referred to bureaus for internal administrative follow-
     up. Others were unrelated to departmental activities or did not provide sufficient information for
     any investigative follow-up and so were not accepted for investigation or referral. Fines and other
     financial recoveries refer only to agreements that a judge accepted.
                                                                                                         Statistical Data   45




                                               Investigative Activities

    Investigations opened                                                                                          37
    Investigations closed                                                                                          28
    Arrests                                                                                                         0
    Indictments/Informations                                                                                        1
    Convictions                                                                                                     9
    Fines and other financial recoveries                                                        $41,244,893.90a

                                               Allegations processed

    hotline complaints                                                                                          628
    Total complaints, all sources                                                                               628
    Referrals to bureaus or non-Commerce agencies                                                               279
       Referrals with response required                                                                            74
              Responses received                                                                                   63
                  From referrals made this reporting period                                                        12
                  From referrals made prior                                                                        51
              Referrals closed                                                                                     57
       Referrals with no response required                                                                      205
    Evaluated but not accepted for investigation or referral                                                    312
a   A portion of this total is derived from our participation in federal multiagency investigations. It does not
    reflect actual monetary recoveries for the Department.


tAblE 2. AuDIt rEsOlutIOn AnD fOllOW-up

The Inspector General Act Amendments of 1988 require us to present in this report audits
issued before the beginning of the reporting period (October 1, 2012) for which no management
decision had been made by the end of the period (March 31, 2013). Seven audit reports remain
unresolved for this reporting period (see page 53).

Audit resolution is the process by which the Department of Commerce reaches an effective
management decision in response to audit reports. Management decision refers to
management’s evaluation of the findings and recommendations included in the audit report and
the issuance of a final decision by management concerning its response.

Department Administrative Order 213-5, Audit Resolution and Follow-up, provides procedures
for management to request a modification to an approved audit action plan or for a financial
assistance recipient to appeal an audit resolution determination. The following table summarizes
modification and appeal activity during the reporting period.


    report Category                                        Modifications                            Appeals

    Actions pending (October 1, 2012)                             0                                     2
    Submissions                                                   0                                     4
    Decisions                                                     0                                     4
    Actions pending (March 31, 2013)                              0                                     2
46   Office of Inspector General | Semiannual Report to Congress | March 2013




     tAblE 3. AuDIt AnD EvAluAtIOn stAtIstICAl HIGHlIGHts fOr tHIs pErIOD

     Audits comply with standards established by the Comptroller General of the United States for
     audits of federal establishments, organizations, programs, activities, and functions.

     Inspections include evaluations, inquiries, and similar types of reviews that do not constitute an
     audit or a criminal investigation.


         questioned costsa                                                                 $ 3,246,924

         Value of audit recommendations that funds be put to better useb                     3,978,174

         Value of audit recommendations agreed to by managementc                           116,038,608


     These amounts include costs questioned by state and local government auditors or independent
     public accountants.

     a Questioned cost: This is a cost questioned by OIG because of (1) an alleged violation of
     a provision of a law, regulation, contract, grant, cooperative agreement, or other agreement or
     document governing the expenditure of funds; (2) a finding that, at the time of the audit, such cost
     is not supported by adequate documentation; or (3) a finding that an expenditure of funds for the
     intended purpose is unnecessary or unreasonable.

     b value of audit recommendations that funds be put to better use: This results from
     an OIG recommendation that funds could be used more efficiently if Department management
     took action to implement and complete the recommendation. Such actions may include (1)
     reductions in outlays; (2) deobligation of funds from programs or operations; (3) withdrawal of
     interest subsidy costs on loans or loan guarantees, insurance, or bonds; (4) costs not incurred by
     implementing recommended improvements related to the Department, a contractor, or a grantee;
     (5) avoidance of unnecessary expenditures identified in preaward reviews of contracts or grant
     agreements; or (6) any other savings specifically identified.

     c value of audit recommendations agreed to by management: This is the sum of (1)
     disallowed costs and (2) funds put to better use that are agreed to by management during
     resolution. Disallowed costs are the amount of costs that were questioned by the auditors or the
     agency action official and subsequently determined—during audit resolution or negotiations by a
     contracting officer—not to be charged to the government.
                                                                                                                   Statistical Data   47




tAblE 4. AuDIts WItH QuEstIOnED COsts

See table 3 for a definition of “questioned cost.” An unsupported cost is a cost that is not
supported by adequate documentation at the time of the audit. questioned costs include
unsupported costs.

  report Category                                               number                 Questioned              unsupported
                                                                                         Costs                    Costs

  A.	   Reports for which no management decision
        had been made by the beginning of the                      20                 $64,230,176              $ 48,774,644
        reporting perioda

  B. 	 Reports issued during the reporting period                  15                    3,246,924                   427,993

  Total reports (A+B) requiring a management
  decision during the periodb                                      35                   67,477,100               49,202,637

  C. 	 Reports for which a management decision
       was made during the reporting periodc                       17                   50,753,607               48,246,902
        i. Value of disallowed costs	                                                   50,261,979               47,985,602
        ii. Value of costs not disallowed	                                                  500,708                  261,300

  D. 	 Reports for which no management decision
       had been made by the end of the
       reporting period                                            18                   16,723,493                   955,735

a The beginning balance of table 4 (category A) is $3.9 million greater than the ending balance of table 4 (category D) in
 the September 2012 Semiannual Report because $3.9 million in questioned costs from More Action Needed to Improve
 Controls in Asset Forfeiture Fund (OIG-12-019-I) was erroneously omitted from the September 2012 report.
b Two audit reports included in this table are also included among reports with recommendations that funds be put to better
 use (see table 5). however, the dollar amounts do not overlap.
c In category C, lines i and ii do not always equal the total line in C because resolution may result in values greater than the
 original recommendations.
48   Office of Inspector General | Semiannual Report to Congress | March 2013




     tAblE 5. AuDIts WItH r ECOMMEnDAtIOns tHAt funDs bE put tO b EttEr usE

     See table 3 for a definition of “recommendation that funds be put to better use.”

       report Category 	                                                                         number                    value

       A. 	 Reports for which no management decision had been made by
            the beginning of the reporting perioda                                                   2              $61,798,455

       B. 	 Reports issued during the reporting period                                               2                  3,978,174

       Total reports (A+B) requiring a management decision during the periodb                        4                65,776,629

       C. 	 Reports for which a management decision was made
            during the reporting periodc                                                             4                65,776,629
              i. Value of recommendations agreed to by management 	                                                   65,776,629
              ii. Value of recommendations not agreed to by management 	                                                           0

       D. 	 Reports for which no management decision had been made by
            the end of the reporting period                                                          0                             0
     a The beginning balance of table 5 (category A) is $871,000 greater than the ending balance of table 5 (category D) in
      the September 2012 Semiannual Report because $871,000 in funds be put to better use from More Action Needed to
      Improve Controls in Asset Forfeiture Fund (OIG-12-019-I) was erroneously omitted from the September 2012 report.
     b Two audit reports included in this table are also included among reports with questioned costs (see table 4). however, the
      dollar amounts do not overlap.
     c In category C, lines i and ii do not always equal the total line in C because resolution may result in values greater than the
      original recommendations.



     tAblE 6. rEpOrt typEs fOr tHIs pErIOD

     performance audits are engagements that provide assurance or conclusions based on an
     evaluation of sufficient, appropriate evidence against stated criteria, such as specific requirements,
     measures, or defined business practices. Performance audits provide objective analysis so that
     management, and those charged with governance and oversight can use the information to
     improve program performance and operations, reduce costs, facilitate decision making by parties
     with responsibility to oversee or initiate corrective action, and contribute to public accountability.

     financial statement audits provide reasonable assurance through an opinion (or disclaimer
     of an opinion) about whether an entity’s financial statements are presented fairly in all material
     respects in conformity with generally accepted accounting principles, or with a comprehensive
     basis of accounting other than these principles.

     Evaluations and inspections include evaluations, inquiries, and similar types of reviews that
     do not constitute an audit or a criminal investigation. An inspection is defined as a process that
     evaluates, reviews, studies, or analyzes the programs and activities of a department or agency to
     provide information to managers for decision making; make recommendations for improvements to
     programs, policies, or procedures; and identify where administrative action may be necessary.

       type                                            number of reports                                          table number

       Performance audits                                         3                                                   Table 6-a

       Financial statement audits                                 5                                                   Table 6-b

       Evaluations and inspections                               10                                                   Table 6-c

       total                                                     18
                                                                                Statistical Data                     49




tAblE 6-A. pErfOrMAnCE AuDIts

 report title                               report         Date       funds to be         Amount         Amount
                                            number        Issued         put to          Questioned    unsupported
                                                                       better use

 national telecommunications and Information Administration

 Proper Classification and Strengthened   OIG-13-013-A   01.31.2013       0                        0       0
 Monitoring of Subrecipients Are
 Needed for the Broadband Technology
 Opportunities Program (BTOP)

 Fourth Annual Assessment of the          OIG-13-016-A   02.22.2013       0                 190,317        0
 Public Safety Interoperable
 Communications Grant Program

 u.s. patent and trademark Office

 USPTO Deployed Wireless Capability       OIG-13-014-A   02.01.2013       0                        0       0
 with Minimal Consideration for
 IT Security



tAblE 6-b. fInAnCIAl stAtEMEnt AuDIts

 report title                               report         Date       funds to be        Amount          Amount
                                            number        Issued         put to         Questioned     unsupported
                                                                       better use

 Office of the secretary

 Fy 2012 Consolidated                     OIG-13-006-A   11.15.2012       0                        0       0
 Financial Statements

 Fy 2012 Financial Statements Audit:      OIG-13-007-A   11.15.2012       0                        0       0
 Assessment of Information Technology
 Controls Supporting Financial
 Management Systems

 Fy 2012 Special Purpose                  OIG-13-009-A   11.15.2012       0                        0       0
 Financial Statements

 u.s. patent and trademark Office

 Fy 2012 Financial Statements             OIG-13-004-A   11.15.2012       0                        0       0

 Fy 2012 Financial Statements Audit:      OIG-13-005-A   11.15.2012       0                        0       0
 Assessment of Information Technology
 Controls Supporting Financial
 Management Systems
50                           Office of Inspector General | Semiannual Report to Congress | March 2013




tAblE 6-C. EvAluAtIOns AnD InspECtIOns

 report title                                 report                   Date               funds to be    Amount        Amount
                                              number                  Issued                 put to     Questioned   unsupported
                                                                                           better use

 Economics and statistics Administration

 letter to Senator Coburn                 OIG-13-002-M              10.25.2012                   0          0            0
 re: Improving the 2020
 Census Through Administrative
 Records and Geospatial
 Information

 International trade Administration

 U.S. Export Assistance Centers            OIG-13-010-I             11.30.2012             1,528,000        0            0
 Could Improve Their Delivery
 of Client Services and
 Cost Recovery Efforts

 national Oceanic and Atmospheric Administration

 NOAA Needs to Continue                    OIG-13-011-I             01.16.2013                   0          0            0
 Streamlining the Rulemaking
 Process and Improve Transparency
 and Consistency in
 Fisheries Management

 Office of the secretary

 quarterly Conference Reporting            OIG-13-001-I             10.17.2012                   0       282,637       282,637
 Processes Need Improvement

 Top Management Challenges                 OIG-13-003-I             11.09.2012                   0          0            0
 Facing the Department
 of Commerce

 Fy 2012 Assessment of                    OIG-13-008-M              11.15.2012                   0          0            0
 key System Security Measures

 letter to Representatives                OIG-13-025-M              12.28.2012                   0          0            0
 Issa and Cummings
 re: the OIG Work Plan
 and Unimplemented
 Recommendations

 Nonfederal Audit                         OIG-13-015-M              2.11.2013                    0          0            0
 Results for the 6-Month
 Period Ending
 December 31, 2012

 Fy 2012 Compliance                        OIG-13-020-I             03.15.2013                   0          0            0
 with Improper Payment
 Requirements

 national telecommunications and Information Administration

 Response to Chairmen                      OIG-13-012-I             1.23.2013                    0          0            0
 Walden and Shimkus
 re: BTOP grant to the
 Executive Office of the
 State of West Virginia
                                                                                     Statistical Data   51




tAblE 7. sInGlE AuDIt AnD prOGrAM-spECIfIC AuDIts

OIG reviewed and accepted 144 audit reports prepared by independent public accountants
and local, state, and other federal auditors. The reports processed with questioned costs,
recommendations that funds be put to better use, and/or nonfinancial recommendations are listed
in table 7-a.

  Agency                                                                          Audits

  Economic Development Administration                                               58

  Minority Business Development Agency                                                0

  National Institute of Standards and Technologya                                   25

  National Oceanic and Atmospheric Administration                                   18

  National Telecommunications and Information Administration                        14

  Multibureau                                                                       26

  No Departmental expenditures                                                        3

  total                                                                            144
a Includes 19 program-specific audits.
52                         Office of Inspector General | Semiannual Report to Congress | March 2013




tAblE 7-A. prOCEssED r EpOrts WItH MAtErIAl AuDIt fInDInGs

 report title                            report                         Date              funds to     Amount        Amount
                                         number                        Issued            be put to    Questioned   unsupported
                                                                                         better use

 Economic Development Administration

 Borough of Paulsboro             ATl-09999-13-4416                  11.30.2012                0       665,958

 Scioto County                    ATl-09999-13-4621                  12.04.2012                0        21,557

 Community Investment             ATl-09999-13-4649                  1.15.2013           2,450,174        0            0
 Corp. of Decatur Inc.

 Acadiana Regional                ATl-09999-13-4729                  3.05.2013                 0        40,000         0
 Development District

 kerr Tar Regional                ATl-09999-13-4742                  3.13.2013                 0       103,903         0
 Council of Governments

 national Institute of standards and technology

 Coherix, Inc.                    ATl-09999-13-4642                  12.21.2012                0        81,539         0

 America Society of               ATl-09999-13-4695                  01.24.2013                0        66,820         0
 heating, Refrigerating,
 and Air-Conditioning
 Engineers Inc. and
 Affiliates

 Fluke Electronics                ATl-09999-13-4716                  02.20.2013                0        15,803       15,803

 Caterpillar Inc.                 ATl-09999-13-4713                  02.21.2013                0        17,885         0
 Product Development
 & Global Technology
 Division

 Angstron Materials               ATl-09999-13-4710                  03.29.2013                0        55,130         0

 Angstron Materials                  ATl-09999-13-4711            03.29.2013                   0        32,030         0

 national Oceanic and Atmospheric Administration

 Institute for                    ATl-09999-13-4679                  01.15.2013                0        89,274         0
 Wildlife Studies

 national telecommunications and Information Administration

 Florida Rural                    ATl-09999-13-4681                  12.19.2012                0      1,454,518        0
 Broadband Alliance, llC

 North Florida                    ATl-09999-13-4687                  02.12.2013                0       129,553       129,553
 Broadband Authority
                                                                                      Statistical Data   53




tAblE 8. AuDIts unrEsOlvED fOr MOrE tHAn 6 MOntHs

Census bureau                Computer & High tech Management, Inc.
                             In our September 2005 Semiannual Report, we reported the results
                             of audits of 2 of the 21 task orders for IT services that Computer &
                             high Tech Management, Inc., was providing to the Census Bureau.
                             We sought to determine whether the firm had complied with contract
                             terms and conditions and federal regulations and had billed Census
                             for work performed in accordance with specifications of the task
                             order. We found that the firm failed to comply with numerous contract
                             and federal requirements, which caused us to question more than
                             $10.7 million in direct labor and other reimbursable costs. We have
                             suspended audit resolution on these two audits pursuant to an
                             agreement with Census.

Economic Development         southeastern Arizona Governments Organization
Administration               A single audit review noted that two reimbursement requests were
                             submitted to the Department and contained the same expenditures.
                             The result was that the organization received a reimbursement of
                             $33,240 in excess of expenditures. EDA is still reviewing the audit
                             resolution proposal.

national Institute of        Manufacturing Extension partnership program
standards and technology     OIG is reviewing NIST’s audit resolution proposal for OIG’s July 2010
                             audit report on California Manufacturing Technology Consulting. We
                             have reported the findings and questioned costs contained in this
                             report as unresolved in previous Semiannual Reports.

national Institute of        Chevron Energy technology Company
standards and technology     This program-specific audit questioned some direct and indirect
                             costs. NIST’s grants office is trying to resolve the audit with
                             the recipient.

national Oceanic and         Alaska Eskimo Whaling Commission
Atmospheric Administration   As reported in our March 2009 Semiannual Report, a single audit
                             review of this NOAA grant questioned costs totaling $66,353 in
                             expenditures that were not adequately documented.

national                     virgin Islands public finance Authority
telecommunications and       The audit report noted material findings and noncompliance with five
Information Administration   different compliance requirements. There were no questioned costs
                             associated with the findings. NTIA is reviewing the audit resolution
                             proposal.
54   Office of Inspector General | Semiannual Report to Congress | March 2013




     rEpOrtInG
     rEQuIrEMEnts


     The Inspector General Act of 1978, as amended, specifies reporting requirements for semiannual
     reports. The requirements are listed below and indexed to the applicable pages of this report.

      section                      topic                                                        page

      4(a)(2)                      Review of legislation and Regulations                         54

      5(a)(1)                      Significant Problems, Abuses, and Deficiencies               8–32

      5(a)(2)                      Significant Recommendations for Corrective Action            8–32

      5(a)(3)                      Prior Significant Recommendations Unimplemented               54

      5(a)(4)                      Matters Referred to Prosecutorial Authorities                 45

      5(a)(5) and 6(b)(2)          Information or Assistance Refused                             55

      5(a)(6)                      listing of Audit Reports                                    49–50

      5(a)(7)                      Summary of Significant Reports                               8–32

      5(a)(8)                      Audit Reports—questioned Costs                                47

      5(a)(9)                      Audit Reports—Funds to Be Put to Better Use                   48

      5(a)(10)                     Prior Audit Reports Unresolved                                55

      5(a)(11)                     Significant Revised Management Decisions                      55

      5(a)(12)                     Significant Management Decisions with Which OIG Disagreed     55

      5(a)(13)                     Results of Peer Review                                        55



     sECtIOn 4(A)(2): rEvIEW Of lEGIslAtIOn AnD rEGulAtIOns

     This section requires the inspector general of each agency to review existing and proposed
     legislation and regulations relating to that agency’s programs and operations. Based on this
     review, the inspector general is required to make recommendations in the semiannual report
     concerning the impact of such legislation or regulations on (1) the economy and efficiency of
     the management of programs and operations administered or financed by the agency or (2)
     the prevention and detection of fraud and abuse in those programs and operations. Comments
     concerning legislative and regulatory initiatives affecting departmental programs are discussed,
     as appropriate, in relevant sections of the report.

     sECtIOn 5(A)(3): prIOr sIGnIfICAnt rECOMMEnDAtIOns unIMplEMEntED

     This section requires identification of each significant recommendation described in previous
     semiannual reports for which corrective action has not been completed. Section 5(b) requires
     that the Secretary transmit to Congress statistical tables showing the number and value of audit
     reports for which no final action has been taken, plus an explanation of why recommended action
     has not occurred, except when the management decision was made within the preceding year.
     however, information on the status of any audit recommendations can be obtained through OIG
     upon request.
                                                                                      Reporting Requirements   55




sECtIOns 5(A)(5) AnD 6(b)(2): InfOrMAtIOn Or AssIstAnCE rEfusED

These sections require a summary of each report to the Secretary when access, information, or
assistance has been unreasonably refused or not provided.

On November 30, 2012, the NOAA Deputy Secretary for Operations informed the Inspector
General via e-mail that OIG and GAO staff—both of whom had been routine observers at
past Program Management Council (PMC) meetings—would no longer be invited to attend
the monthly PMC meetings, where the National Environmental Satellite, Data and Information
Service environmental satellite program management offices report progress and issues to
NOAA executives. Because PMCs are the highest decision-level forum within NOAA for satellite
programs, attending these meetings has helped OIG gain valuable insight into NOAA leadership’s
direction and program execution, as well as effectively providing independent assessments
to Congress and other stakeholders, for ongoing satellite audits and oversight activities. The
Inspector General reported OIG’s concerns to NOAA and the Deputy Secretary and has
requested that OIG attendance be reinstated. The matter remains unresolved.

sECtIOn 5(A)(10): prIOr AuDIt rEpOrts unrEsOlvED

This section requires (1) a summary of each audit report issued before the beginning of the
reporting period for which no management decision has been made by the end of the reporting
period (including the date and title of each such report); (2) an explanation of why a decision has
not been made; and (3) a statement concerning the desired timetable for delivering a decision on
each such report. There are two Census Bureau, one EDA, two NIST, one NOAA, and one NTIA
reports more than 6 months old for which no management decision has been made.

sECtIOn 5(A)(11): sIGnIfICAnt rEvIsED MAnAGEMEnt DECIsIOns

This section requires an explanation of the reasons for any significant revision to a management
decision made during the reporting period. Department Administrative Order 213-5, Audit Resolution
and Follow-up, provides procedures for revising a management decision. For financial assistance
audits, OIG must concur with any decision that would change the audit resolution proposal in
response to an appeal by the recipient. There are two appeals pending at the end of this period.

sECtIOn 5(A)(12): sIGnIfICAnt MAnAGEMEnt DECIsIOns WItH WHICH
OIG DIsAGrEED

This section requires information concerning any significant management decision with which
the inspector general disagrees. Department Administrative Order 213-5 provides procedures
for elevating unresolved audit recommendations to higher levels of Department and OIG
management, including their consideration by an audit resolution council. During this period, no
audit issues were referred.

sECtIOn 5(A)(13): rEsults Of pEEr rEvIEW

The most recent peer review of the Office of Audit and Evaluation was conducted in 2012 by the Office
of Personnel Management (OPM) Office of Inspector General. OPM OIG’s System Review Report of our
audit operations is available on our website. We received a pass rating, the highest available rating. We
are implementing all of OPM OIG’s recommendations for process and policy improvements.

The most recent peer review of the Office of Investigations was conducted in 2011 by OPM’s OIG.
We received a compliant rating. The final report of this peer review was issued on April 30, 2012.

In 2012, we conducted our latest peer review, which examined NASA OIG’s audit operations.
NASA OIG has informed us that it is implementing the recommendation we made in our review.
56   Office of Inspector General | Semiannual Report to Congress | March 2013




     ACrOnyMs AnD AbbrEvIAtIOns


     ACs            American Community Survey                         ItA          International Trade Administration
     AEWC           Alaska Eskimo Whaling                             jpss         Joint Polar Satellite System
                    Commission                                        MbDA         Minority Business Development
     AIA            America Invents Act                                            Agency
     Atp            Advanced Technology Program                       MEp          Manufacturing Extension
                    (NIST)                                                         Partnership (NIST)
     bEA            Bureau of Economic Analysis                       MMpA         Marine Mammal Protection Act
     bIs            Bureau of Industry and Security                   MsA          Magnuson-Stevens
     btOp           Broadband Technology                                           Fishery Conservation and
                    Opportunities Program                                          Management Act

     CIO            Chief Information Officer                         nAsA         National Aeronautics and Space
                                                                                   Administration
     CIrt           Computer Incident Response
                    Team                                              nEI          National Export Initiative

     Cs             Commercial Service (ITA)                          nIst         National Institute of Standards
                                                                                   and Technology
     DOj            Department of Justice
                                                                      nMfs         National Marine Fisheries Service
     EDA            Economic Development
                    Administration                                    nOAA         National Oceanic and
                                                                                   Atmospheric Administration
     EsA            Economics and Statistics
                    Administration                                    ntIA         National Telecommunications and
                                                                                   Information Administration
     EsA            Endangered Species Act
                                                                      OGC          Office of General Counsel
     EOWv           Executive Office of the State of
                    West Virginia                                     OIG          Office of Inspector General

     fAr            Federal Acquisition Regulation                    OMb          Office of Management and
                                                                                   Budget
     fbI            Federal Bureau of Investigation
                                                                      OpM          Office of Personnel Management
     firstnet       First Responder Network Authority
                                                                      pAr          Performance and Accountability
     fIsMA          Federal Information Security                                   Report
                    Management Act of 2002
                                                                      pEWlAn       Public and Enterprise Wireless
     fMC            Fishery Management Council                                     local Area Network (USPTO)
                    (NOAA)
                                                                      psIC         Public Safety Interoperable
     fOIA           Freedom of Information Act                                     Communications
     fy             fiscal year                                       sDlC         system development life cycle
     GAO            Government Accountability Office                  suomi npp	 Suomi National Polar-orbiting
     GOEs           Geostationary Operational                                    Partnership
                    Environmental Satellite                           t&M/lH	      Time-and-Materials and
     GOEs-r         Geostationary Operational                                      labor-hour
                    Environmental Satellite-R Series                  tIC	         Trusted Internet Connection
     Hsus           humane Society of the                             tIp	         Technology Innovation Program
                    United States                                                  (NIST)
     IpErA          Improper Payments Elimination                     usEAC	       U.S. Export Assistance Center
                    and Recovery Act of 2010                                       (ITA)
     IpIA           Improper Payments Information                     usptO	       U.S. Patent and Trademark Office
                    Act of 2002
     It             information technology
U.S. Department of Commerce
Office of Inspector General
1401 Constitution Avenue, NW
Washington, DC 20230

www.oig.doc.gov




                         OUr MISSIOn

                         To improve the programs and operations of the
                         Department of Commerce through independent
                         and objective oversight.
